dod report no. d-2011-080                  dos report no. Aud/cG-11-30

              A Joint Audit by the inspectors GenerAl of
                       depArtment of stAte And
                        depArtment of defense




    dod And dos need better procedures to
  monitor And expend dod funds for the AfGhAn
        nAtionAl police trAininG proGrAm




                                           July 7, 2011
                                  (Public Law 111-383, Section 1235)
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 644-8937) or fax (703) 604-8932. You may
also obtain a copy from the Web site of the Department of State, Office of Inspector
General at http://oig.state.gov or by emailing a request to OIG-Reports@state.gov.

Suggestions for Audits
To suggest or request audits, contact the Department of Defense Office of the Deputy
Inspector General for Auditing by phone (703) 604-9142 (DSN 664-9142), by fax
(703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
ANP                           Afghan National Police
AQM                           Office of Acquisitions Management
CIVPOL                        Civilian Police
COR                           Contracting Officer’s Representative
CSTC–A                        Combined Security Transition Command–Afghanistan
DCAA                          Defense Contract Audit Agency
DCMA                          Defense Contract Management Agency
DOS                           Department of State
DSCA                          Defense Security Cooperation Agency
FAR                           Federal Acquisition Regulation
I-COR                         In-Country Contracting Officer’s Representative
INL                           Bureau of International Narcotics and Law Enforcement
                                 Affairs
LOTFA                         Law and Order Trust Fund–Afghanistan
MOA                           Memorandum of Agreement
MOU                           Memorandum of Understanding
NTM–A                         North Atlantic Treaty Organization Training Mission–
                                 Afghanistan
SOW                           Statement of Work
USD(C)/CFO                    Under Secretary of Defense (Comptroller)/Chief Financial
                                 Officer, DoD
USD(P)                        Under Secretary of Defense for Policy
                                   INSPECTORS GENERAL

                 Department of Defense                      Department of State
                 400 Army Navy Drive                        2201 C Street N.W.
                 Arlington, Virginia 22202                  Suite 8100, SA-3
                                                            Washington, D.C. 20522


                                                                                     July 7, 2011

MEMORANDUM FOR DISTRIBUTION

SUBJECT: DoD and DOS Need Better Procedures to Monitor and Expend DoD Funds
         for the Afghan National Police Training Program (Report No. D-2011-080
         and AUD/CG-11-30)

We are providing this report for review and comment. We conducted this audit in response to a
requirement in the FY 2011 National Defense Authorization Act. In 2006, DoD assumed
responsibility for funding the Afghan National Police training program, and the Department of
State (DOS) continued to direct and provide oversight of the contracted civilian advisors,
mentors, and trainers. However, DoD and DOS needed improved processes and procedures to
better manage the approximately $1.26 billion of DoD funds provided for the program.
Specifically, DOS did not properly obligate or return to DoD approximately $172.40 million.
Moreover, DOS approved contractor payments for approximately $2.07 million that were either
not authorized or were for services not provided. Additionally, DoD and DOS did not fully
implement all recommendations from a previous report issued February 9, 2010, on this subject.

DoD Directive 7650.3 requires that recommendations be resolved promptly. We considered
management comments on a draft of this report when preparing the final report. Based on
management comments, we revised draft Recommendations A.1.b, A.5.a, and A.5.b.2. We also
redirected Recommendation A.8.a-f. We request comments from the Director, Defense Security
Cooperation Agency, on Recommendation A.8.a-f by August 8, 2011.

Office of the Under Secretary of Defense (Comptroller)/Chief Financial Officer, DoD, comments
on Recommendations A.7.a-d and A.8.a-f were responsive, and comments on
Recommendation A.9 were partially responsive, but met the intent of the recommendation. No
additional comments are required. Defense Contract Audit Agency comments on
Recommendation B.5 were responsive, and no additional comments are required.

DOS comments on Recommendations A.1.a, A.1.c-d, A.2.a, A.5.b.1, A.5.c, A.9, B.3.a-b, and
B.4.a-f were responsive or partially responsive, but met the intent of the recommendation. No
additional comments are required. DOS did not comment on Recommendations A.8.a-f or
B.1.a-e, and comments on the final report are required. In addition, DOS comments on
Recommendations A.1.b, A.2.b, A.3.a-b, A.4, A.5.a, A.5.b.2, A.5.d-f, A.6, and B.2.a-d were
either not responsive or partially responsive and did not meet the intent of the recommendations;
comments on the final report are required. We request additional comments by August 8, 2011.
For the revised or reissued recommendations from the February 2010 joint audit report, DOS
comments on Recommendations B.1, B.2.a-b, and C.2.b were partially responsive, but they met
the intent of the recommendation and no additional comments are required.
                                                                                                 2


If possible, send a .pdf file containing your comments to audjsao@dodig.mil and to
Ms. Evelyn R. Klemstine, Assistant Inspector General for Audits, at klemstinee@state.gov.
Copies of your comments must have the actual signature of the authorizing official for your
organization. We are unable to accept the /Signed/ symbol in place of the actual signature. If
you arrange to send classified comments electronically, you must send them over the SECRET
Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to Mr. Michael Roark
at (703) 604-9187 (DSN 664-9187) or Ms. Evelyn Klemstine at (202) 663-0372.




_____________________________                   ______________________________
Daniel R. Blair                                 Evelyn R. Klemstine
Deputy Inspector General for Auditing           Assistant Inspector General for Audits
Department of Defense                           Department of State
Office of Inspector General                     Office of Inspector General




DISTRIBUTION:

UNDER SECRETARY OF DEFENSE FOR POLICY
UNDER SECRETARY OF DEFENSE (COMPTROLLER)/
   CHIEF FINANCIAL OFFICER, DOD
UNDER SECRETARY OF STATE FOR MANAGEMENT
COMMANDER, INTERNATIONAL SECURITY ASSISTANCE FORCE JOINT COMMAND
COMMANDER, NORTH ATLANTIC TREATY ORGANIZATION TRAINING MISSION–
   AFGHANISTAN/COMBINED SECURITY TRANSITION COMMAND–AFGHANISTAN
ASSISTANT SECRETARY OF STATE FOR ADMINISTRATION
ASSISTANT SECRETARY OF STATE FOR THE BUREAU OF INTERNATIONAL
   NARCOTICS AND LAW ENFORCEMENT AFFAIRS
ASSISTANT SECRETARY OF STATE FOR THE BUREAU OF RESOURCE
   MANAGEMENT AND CHIEF FINANCIAL OFFICER
DIRECTOR, DEFENSE CONTRACT AUDIT AGENCY
DIRECTOR, DEFENSE CONTRACT MANAGEMENT AGENCY
DIRECTOR, DEFENSE SECURITY COOPERATION AGENCY
Report No. D-2011-080 (DoD Project No. D2011-D000JA-0009.000)
Report No. AUD/CG-11-30 (DOS Project No. 11AUD3016)                                      July 7, 2011

                  Results in Brief: DoD and DOS Need
                  Better Procedures to Monitor and
                  Expend DoD Funds for the Afghan
                  National Police Training Program
                                                          contractor. As a result, we identified total
What We Did                                               potential monetary benefits of approximately
We conducted this audit in response to a                  $124.62 million.* When recovered, these funds
requirement in the FY 2011 National Defense               could be used for valid ANP training program
Authorization Act. This is the first in a series of       requirements or other DoD requirements. In
reports to address those requirements. For this           addition, if not corrected, incorrect obligations
report, we determined whether the Department              of approximately $74.91 million could result in
of State (DOS) properly obligated                         potential Antideficiency Act violations.
approximately $1.26 billion of DoD funds in
support of the Afghan National Police (ANP)               DoD and DOS needed to take action on 11 of
training program and appropriately approved               the 23 recommendations made in the 2010 joint
contractor invoices. We also determined the               audit report. Of those 11 recommendations, we
status of management actions taken in response            replaced 7 with new recommendations. The
to the February 9, 2010, DoD IG and DOS IG                other 4 remain open or were reissued.
joint audit report. The other reports will address
the remaining National Defense Authorization
                                                          What We Recommend
Act requirements.                                         Among other recommendations, DoD and DOS
                                                          officials should develop procedures for
What We Found                                             monitoring the obligation and expenditure of
DOS officials did not appropriately obligate or           DoD funds for the ANP training program and
return to DoD approximately $172.40 million of            initiate a potential Antideficiency Act violation
approximately $1.26 billion of DoD funds                  investigation. Also, DOS should increase the
provided for the ANP training program. This               scope of the pre-payment invoice reviews to
occurred because DOS lacked adequate                      identify and reject costs that were not authorized
procedures for obligating, monitoring, and                or services not provided before payment.
deobligating DoD funds for the ANP training
program. Moreover, DoD officials did not
                                                          Management Comments and
validate whether the Bureau of International              Our Response
Narcotics and Law Enforcement Affairs (INL)               We revised draft Recommendations A.1.b, A.5.a,
officials obligated funds in accordance with the          and A.5.b.2 based on management comments,
reimbursable agreements.                                  and we redirected and request comments on
                                                          Recommendation A.8. Comments from DoD
In addition, the DOS contracting officer’s                officials to the draft were responsive or partially
representative approved contractor invoices for           responsive, and no additional comments are
payment for approximately $2.07 million that              required. Most comments from DOS officials
were either not authorized or were for services           were partially or not responsive, and comments
not provided. This occurred because DOS                   on the final report are required. Please see the
officials did not always perform a detailed               Recommendations Table on the next page.
review of invoices before payment and relied on
a post-payment review of invoices to identify             *See Finding A page 20, Finding B page 40, and
overpayments and obtain refunds from the                  Appendix E for details on potential monetary benefits.


                                                      i
Recommendations Table
                                        Recommendations           No Additional Comments
         Management
                                       Requiring Comment                Required
Under Secretary of Defense for                                    A.9
Policy
Under Secretary of Defense                                        A.7.a-d, A.8.a-f, A.9
(Comptroller)/Chief Financial
Officer, DoD
Assistant Secretary of State,       A.8.a-f
Bureau of Resource Management
and Chief Financial Officer
Director, Bureau of                 A.6
Administration, Office of
Logistics Management, Office of
Acquisitions Management
Contracting Officer, Bureau of      B.1.a-e                       B.4.a-f
Administration, Office of
Logistics Management, Office of
Acquisitions Management
Executive Director, Bureau of       A.1.b, A.2.b, A.3.a-b, A.4,   A.1.a, A.1.c-d, A.2.a,
International Narcotics and Law     A.5.a, A.5.b.2, A.5.d-f,      A.5.b.1, A.5.c, A.9, B.3.a-b
Enforcement Affairs                 B.2.a-d
Director, Defense Contract Audit                                  B.5
Agency
Director, Defense Security          A.8.a-f
Cooperation Agency

Please provide comments by August 8, 2011.



Recommendations Table for the Prior Joint Audit Report: DoD IG
Report No. D-2010-042 and DOS IG Report No. MERO-A-10-06
                                     Prior Recommendations        No Additional Comments
         Management
                                      Requiring Comment                    Required
Assistant Secretary of State,                                     B.1, B.2.a-b, C.2.b
Bureau of International Narcotics
and Law Enforcement Affairs




                                                ii
Table of Contents
Introduction                                                             1
      Objectives                                                         1
      Background                                                         2
      Roles and Responsibilities                                         2
      ANP Training Program Transition                                    4
      Review of Internal Controls                                        4

Finding A. DOS Did Not Properly Obligate or Return DoD Funds             6
      DoD Provided About $1.26 Billion for the ANP Training Program      6
      DOS Improperly Obligated and Did Not Return DoD Funds              8
      DOS Lacked Adequate Procedures for Use of DoD Funds               15
      DoD Did Not Adequately Monitor the Use of Funds                   18
      Support for ANP Training Program Was Reduced by Improper
           Obligations and Retained Funds                               19
      Management Comments on the Finding and Our Response               22
      Recommendations, Management Comments, and Our Response            22

Finding B. INL Approved Contractor Invoices for Costs That Were
   Not Authorized or Were for Services Not Provided                     33
      INL Established Invoice Review and Reconciliation Teams to
           Improve Quality                                              34
      Reviews of DynCorp Systems Identified Control Weaknesses          34
      COR Approved Invoices for Costs That Were Either Not Authorized
           or Were for Services Not Provided                            35
      Limited Review of Invoices Prior to Payment                       39
      Misinterpreting Requirements                                      40
      INL Officials Need to Recover Funds                               40
      DCAA Reviews of DynCorp Timekeeping Records and Labor
           Charges Identified Weaknesses                                41
      Recommendations, Management Comments, and Our Response            42

Status of DoD and DOS Implementation of Prior Audit
   Report Recommendations                                               47
       Recommendations for Finding A. National Strategy                 47
       Recommendations for Finding B. Contractor Oversight              48
       Recommendations for Finding C. Contractor Invoice Review         54
       Recommendations for Finding D. Financial Management              56
       Recommendations for Finding E. Afghan Women’s Police Corps       57

Appendices
     A. Scope and Methodology                                           59
     B. Prior Coverage                                                  62
     C. Use of Technical Assistance                                     64
     D. FY 2011 National Defense Authorization Act, P.L. 111-383,
            Section 1235                                                65
      E. Summary of Potential Monetary Benefits                          67
      F. DoD and DOS Memoranda of Agreement                              68

Glossary                                                                 69

Management Comments
     Under Secretary of Defense (Comptroller)/Chief Financial Officer,
           DoD Comments                                                  70
     Bureau of Administration Comments                                   73
     Bureau of International Narcotics and Law Enforcement Affairs
           Comments                                                      75
     Defense Contract Audit Agency Comments                              87
     NATO Training Mission–Afghanistan/Combined Security Transition
           Command–Afghanistan Comments                                  89
Introduction
Objectives
We conducted this audit in response to a requirement in Public Law 111-383, “Ike Skelton
National Defense Authorization Act for Fiscal Year 2011” (the FY 2011 Act), January 7, 2011.
The FY 2011 Act required that the DoD OIG, in consultation with the Department of State
(DOS) OIG, report to Congress within 180 days a description of the Afghan National Police
(ANP) training program that included: (A) components, planning, and scope; (B) cost to DoD
and DOS; (C) allocation of DoD and DOS funding, oversight, and execution responsibilities;
(D) personnel requirements; and (E) an assessment of the cost, performance metrics, and
planning associated with the transfer of ANP training program contract administration from DOS
to DoD. The FY 2011 Act also required the OIGs to conduct followup activities on DoD IG
Report No. D-2010-042 and DOS IG Report No. MERO-A-10-06, “DoD Obligations and
Expenditures of Funds Provided to the Department of State for the Training and Mentoring of
the Afghan National Police,” February 9, 2010 (the February 2010 joint audit report).

Our initial audit objective was to evaluate DoD and DOS efforts to transfer contract
administration for the ANP training program from DOS to DoD. Specifically, we planned to
assess the cost, performance measures, and planning efforts associated with the transfer to ensure
enhanced contract oversight, adequate funding and support, and effective program management.
We also planned to follow up on the February 2010 joint audit report. However, we revised our
audit objectives and scope after meeting with and obtaining agreement from Senate Armed
Services Committee staff members on January 7, 2011. We also agreed to issue at least two
reports that would collectively meet the congressional intent of the FY 2011 Act requirements.
We revised the audit objective for this report to determine whether DOS properly obligated DoD
funds in support of ANP training program requirements and in accordance with Federal laws,
regulations, and reimbursable agreements. We also determined whether DOS approved
contractor invoices in accordance with Federal regulations and contract requirements. Finally,
we determined the status of management actions taken in response to the recommendations made
in the February 2010 joint audit report.

This report partially addresses requirements B and C of the FY 2011 Act, and fully addresses the
requirement to conduct followup activities on the February 2010 joint audit report. Another
report will address whether the Federal Government and contractor plans to transition the
contract administration of the ANP training program from DOS to DoD were complete and
feasible. It will also address whether DoD was prepared to provide management and oversight
of the new DoD contract. Further, it will address the remaining requirements in the FY 2011
Act. For additional information, see the following appendices and glossary:

   •   Appendix A for a discussion of the audit scope and methodology,
   •   Appendix B for prior audit coverage related to the audit objectives,
   •   Appendix C for use of technical assistance,
   •   Appendix D for an excerpt of the FY 2011 Act requirements,
   •   Appendix E for a summary of potential monetary benefits,


                                                1
    •   Appendix F for a list of DoD and DOS memoranda of agreement, and
    •   Glossary for definitions of appropriation terms.

Background
In February 2004, the DOS Bureau of Administration, Office of Logistics Management, Office
of Acquisitions Management (AQM) awarded DynCorp International LLC (DynCorp) the
Civilian Police (CIVPOL) contract (S-LMAQM-04-C-0030), a $1.75 billion indefinite-delivery,
indefinite-quantity contract with firm-fixed-price and cost-plus-fixed-fee elements. The purpose
of the contract was to strengthen the criminal justice systems and security operations overseas by
employing law enforcement professionals to support international civilian police initiatives. The
contract consisted of 1 base year, 4 option years, and four extensions; extending contract
performance through January 2012. According to DOS officials, the total contract value as of
April 30, 2011, was approximately $4.66 billion.

As shown in Table 1, AQM awarded multiple DoD- and DOS-funded task orders under the
CIVPOL contract for DynCorp to provide police advisors, mentors, and trainers and to develop
and execute the ANP training program. 1 In August 2005, AQM awarded task order
S-AQMPD-05F-4305 (task order 4305) for ANP training program services and supplies,
including life support, at eight training centers and obligated approximately $832 million through
42 modifications. In July 2008, AQM awarded task order S-AQMMA-08F-5375 (task
order 5375) to continue providing ANP training program services and obligated approximately
$587 million through 31 modifications. On July 16, 2010, AQM extended task order 5375
through June 30, 2011. In September 2010, DOS awarded S-AQMMA-10F-2708 (task
order 2708) to provide embedded police mentors and obligated approximately $35 million
through three modifications.

               Table 1. ANP Task Orders Awarded Under the CIVPOL Contract
           Task Order                  Award Date             Expiration Date              Amount
     S-AQMPD-05F-4305                August 15, 2005          January 31, 2010          $832 million*

     S-AQMMA-08F-5375                  July 30, 2008            June 30, 2011            587 million

     S-AQMMA-10F-2708               September 1, 2010           July 15, 2011             35 million
    * Both DoD and DOS provided funds for task order 4305

Roles and Responsibilities
From 2003 through 2006, DOS was primarily responsible for funding, directing, and providing
oversight of the ANP training program. In 2006, DoD assumed responsibility for funding the
ANP training program, and DOS continued to direct and provide oversight of the contracted



1
 For the purposes of consistency in the report, we use the term ANP training program to encompass the work
performed under the DOS ANP advising, mentoring, and training task orders, which include task orders 4305, 5375,
and 2708.


                                                       2
civilian advisors, mentors, and trainers through reimbursable agreements between DoD and
DOS. In August 2009, both DoD and DOS agreed to transfer all ANP training program and
mentoring responsibilities to DoD.

Department of State
Within DOS, the Bureau of International Narcotics and Law Enforcement Affairs (INL) provides
support for ANP development and reform, including the ANP training program. Specifically,
INL advises other DOS and U.S. agencies on the development of policies and programs that will
help combat international narcotics and crime. The INL Office of Resource Management
maintains financial oversight of INL funds allotted to overseas posts and provides management
support to improve the effectiveness of INL programs. INL budget and financial management
personnel allot funds to the overseas posts and work with their embassy and INL country
program counterparts to ensure that these funds are obligated and managed in accordance with
all applicable regulations and procedures. Within the INL Office of Resource Management, the
Afghanistan, Iraq, and Jordan Support Division provides acquisition and contract management
support in those countries. Specifically, the Afghanistan, Iraq, and Jordan Support Division
provides the contracting officer’s representatives (CORs) and in-country contracting officer’s
representatives (I-CORs) for the CIVPOL contract, including the DoD-funded task orders
supporting the ANP training program (task orders 4305, 5375, and 2708). INL employs a
combination of Government officials and personal services contractors 2 to fulfill the
responsibilities of these offices. Finally, the INL Office of Afghanistan and Pakistan Programs
acts as the program management office and provides guidance to the Afghanistan, Iraq, and
Jordan Support Division.

Within DOS, AQM manages, plans, and directs the Department’s acquisition programs and
conducts contract administration in support of activities worldwide. AQM officials provide
contract management services including acquisition planning, contract negotiations, cost and
price analysis, and contract administration. The contracting officer for the ANP training
program task orders (4305, 5375, and 2708) resides in AQM.

To maintain consistency within this report, we will use the acronym “DOS” when referring to
both INL and AQM. In addition, we will use the acronym “INL” when referring to more than
one office within INL. For all other instances, we will specify the appropriate office.

Department of Defense
From November 2006 through December 2010, DoD transferred approximately $1.26 billion to
INL to support the ANP training program through reimbursable agreements, such as memoranda
of agreement (MOAs) and understanding (MOUs). 3 Multiple components within DoD have
responsibility for transferring and providing oversight of ANP training program funds, including
the Under Secretary of Defense for Policy (USD[P]), Under Secretary of Defense



2
  A personal services contract is different from a normal service contract as it creates an employer-employee
relationship between the Government and the contractor. As such, a personal services contractor may perform some
inherently governmental functions.
3
  DoD transferred an additional $30 million on January 28, 2011, which was not included in our analysis.


                                                       3
(Comptroller)/Chief Financial Officer, DoD (USD[C]/CFO), Defense Security Cooperation
Agency (DSCA), and the Combined Security Transition Command-Afghanistan (CSTC–A)
Comptroller.

USD(P) officials are responsible for developing MOAs between DoD and INL, which detail the
amount of funds transferring, the time period for use of the funds, and DoD and DOS
responsibilities, including how DOS is to use the funds. Officials from USD(C)/CFO oversee
DoD financial policy, and DSCA provides financial and technical assistance for transferring
DoD funds. Specifically, for the DoD funds transferred to DOS for the ANP training program,
DSCA officials are responsible for developing the MOUs, which transfer the funds agreed upon
in the MOAs. Like the MOAs, the MOUs also include the amount of funds transferring, the
authority for DSCA and DOS to enter into the agreement, and the terms and conditions of the
transfer. 4 The Commander, NTM–A/CSTC–A, has overall responsibility for determining and
executing program requirements and allocating funds. The CSTC–A Comptroller is responsible
for formulating and executing the budget and monitoring the status of Afghanistan Security
Forces Funds, including funds provided for the ANP training program.

ANP Training Program Transition
In August 2009, DoD and DOS agreed to transfer ANP training program contract administration
responsibility from DOS to DoD, with the expectation of DoD taking on all ANP training
responsibilities by January 2010. However, the Army Contracting Command Aberdeen Proving
Ground 5 did not competitively award the DoD contract W91CRB-11-C-0053, cost-plus-fixed-fee
contract, to DynCorp until December 20, 2010. 6 The contract included a 120-day transition
period for the contractor to become fully operational, a 2-year base period, and a 1-year option
period for a contract value of more than approximately $1 billion. During the 120-day transition
period, DOS transitioned ANP training program responsibilities for the DoD-funded task
orders 5375 and 2708 to DoD. DoD also transitioned operations under a DoD contract for
Ministry of Interior operations to the new DoD contract and began to transfer operations under a
second DoD contract for Afghan Border Police. As of April 30, 2011, DoD assumed the
majority of contract oversight and administration responsibilities for the ANP training program
under the new DoD contract.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,” July 29,
2010, requires DoD organizations to implement a comprehensive system of internal controls that
provide reasonable assurance that programs are operating as intended and to evaluate the
effectiveness of the controls. In addition, DOS Foreign Affairs Manual (FAM), 2 FAM 021.1
requires DOS to establish and maintain cost-effective systems of management controls over all
DOS operations in order to ensure that activities are managed effectively, efficiently,



4
  To maintain consistency within this report, we will refer to the MOAs and MOUs as reimbursable agreements.
5
  The Army Contracting Command Aberdeen Proving Ground was formerly a part of the U.S. Army Research,
Development, and Engineering Command.
6
  The delays in the transition of contract administration from DOS to DoD will be discussed in another report in
response to the FY 2011 Act.


                                                         4
economically, and with integrity, and to provide reasonable assurance regarding the prevention
of or prompt detection of errors, irregularities, and mismanagement.

We identified that DOS and DoD lacked controls to ensure that DOS officials appropriately
obligated and returned DoD funds for the ANP training program in accordance with applicable
Federal laws, regulations, and reimbursable agreements. DOS also did not have adequate
procedures in place to review and approve contractor invoices prior to payment. See Appendix E
for potential monetary benefits. We will provide a copy of this report to senior officials
responsible for those internal controls at DoD and DOS.




                                               5
Finding A. DOS Did Not Properly Obligate or
Return DoD Funds
DOS officials did not properly obligate or return approximately $172.40 million of the
approximately $1.26 billion provided by DoD for the ANP training program from
November 2006 through December 2010. Specifically, DOS officials:

    •    moved up to $52.44 million from valid requirements to requirements not in compliance
         with Federal appropriations limitations and the reimbursable agreements;
    •    obligated $22.47 million outside the scope of the reimbursable agreements;
    •    did not return any of the $95.24 million of obligations that were unlikely to be expended;
         and
    •    obligated $2.25 million without maintaining appropriate documentation as required by
         reimbursable agreements.

DOS lacked adequate procedures for obligating, monitoring, and deobligating DoD funds for the
ANP training program. In addition, DoD officials did not validate whether INL obligated funds
in accordance with the reimbursable agreements.

As a result, the ANP training program received less DoD financial support than the value of DoD
funds provided due to INL’s improper obligation and retention of between $120.30 million and
$122.55 million. DoD could realize a benefit if the funds were returned and put to better use
supporting the ANP training program. In addition, by incorrectly obligating DoD funds, DOS
might have improperly augmented both DoD and DOS appropriations by $74.91 million, which
could result in potential Antideficiency Act violations. 7 Finally, INL officials’ failure to return
to DoD obligated funds unlikely to be expended will result in DoD being unable to obligate and
expend funds for other ANP requirements because the funds would have already either expired
or been canceled.

DoD Provided About $1.26 Billion for the ANP
Training Program
From November 2006 through December 2010, DoD provided approximately $1.26 billion to
DOS for the ANP training program through 12 reimbursable agreements. Based on information
provided by INL, it obligated DoD funds for three CIVPOL task orders (4305, 5375, and 2708)
and other requirements, such as in-country air support (contract S-AQMPD-05-C-1103) and
other miscellaneous obligations. 8 Table 2 categorizes the 12 reimbursable agreements by fiscal
year and the reimbursable agreement amount recorded by INL. It further lists the INL
obligations for the three DoD-funded CIVPOL task orders, the in-country air support contract


7
  See Table 7 on page 20 for the specific breakout of the $120.30 million to $122.55 million from which ANP
received decreased benefit and the $74.91 million of total potential Antideficiency Act violations.
8
  DOS provided air support to the police mentors traveling to the regional training centers using an existing DOS
contract. The other category obligations include contributions to the United Nations trust fund for Afghanistan, a
DynCorp equitable adjustment, travel costs, and DOS administrative expenses.


                                                          6
obligations, other obligations, and unobligated categories and demonstrates that DOS obligated
the majority of the approximately $1.26 billion reimbursable amount on the three CIVPOL task
orders.

                   Table 2. Amount of Reimbursable Agreements by Fiscal Year
                                          (in millions)
                                               Task        Task        Task
                   DoD Reimbursable                                                 Air
    FY Funds                                   Order       Order       Order                   Other      Unobligated
                       Amount                                                     Support
                                               4305        5375        2708
2006-07                          $388.00      $346.27                               $18.50     $23.23
2007-08                           391.00       165.21     $205.76                    13.12       6.39                $0.53
2008-09                            75.40                    54.33                    20.02       1.04                 0.01
2009-10                             3.00                     3.00
2009                              181.40                   179.22                      2.10                           0.08
2009-10                            10.76                     1.24       $9.51                                         0.01
2009-10                            35.00                                               35.0
2009-10                            38.00                       38.00
2010-11                            37.00                       23.56    13.44
2010-11                            13.00                       13.00
2010-11                            84.30                       68.10    12.84                                         3.36
2010-11                             3.20                        3.20
    Total                      $1,260.06      $511.48     $589.40      $35.79       $88.74     $30.65                $3.99
Note: Because of rounding, rows and columns may not sum
AQM fees are included in task order 4305 ($.03 million), task order 5375 ($3.80 million), task order 2708
($0.59 million), air support ($0.57 million) and other categories ($2.37 million) for a total of $7.35 million. In
addition, task order 4305 includes $0.37 million in interest.
Source: DOS INL Budgetary Tracking Spreadsheet.

According to the National Defense Appropriations Acts, 9 DoD and DOS had a limited period to
obligate funds, after which the funds would expire. According to the Government
Accountability Office special publication (GAO-04-261SP), “Principles of Appropriations Law,”
January 1, 2004, DOS and DoD have an additional 5 years to expend the expired funds. After
those 5 years, the funds are canceled and cannot be used. (See Appendix F for a discussion of all
reimbursable agreements DoD provided to DOS in support of the ANP training program and the
Glossary for definitions of appropriation terms.)

INL officials stated that they record obligations and expend appropriations or other supplemental
funding using DOS’s Global Financial Management System (the financial system). INL officials
stated that the financial system does not differentiate between reimbursement and direct
obligations; therefore, they established point limitations to separate the two. This resulted in two
separate line items for each country and program, and INL officials told us that an Office of

9
  The following National Defense Appropriation Acts for the Afghanistan Security Forces Fund appropriations state
the period of availability for the funds: Public Law 109-234 (2006), Public Law 110-28 (2007), Public
Law 110-252 (2008), Public Law 111-32 (2009), Public Law 111-118 (2010), and Public Law 111-212 (2010).


                                                           7
Management and Budget examiner did not want the apportionment to be reflected in this
manner. However, INL officials did not provide supporting documentation that these events
occurred. Consequently, INL Office of Resource Management personnel manually track DoD
obligations and disbursements for each reimbursable agreement using a budgetary tracking
spreadsheet.

DOS Improperly Obligated and Did Not Return DoD Funds
DOS officials did not properly obligate or return approximately $172.40 million of the
                                             approximately $1.26 billion provided by DoD for the
      DOS officials did not properly         ANP training program in accordance with the
     obligate or return approximately        reimbursable agreements or Federal appropriation
  $172.40 million of the approximately       limitations. Specifically, DOS officials did not
    $1.26 billion provided by DoD for        comply with Federal appropriations limitations or
       the ANP training program…             the reimbursable agreements when obligating,
                                             moving, and returning DoD funds. Table 3 shows
the amount and type of inappropriate obligation or retention of DoD-provided funds by task
order, air support, or other category. Following our table is a discussion of our analysis of the
INL data.

              Table 3: DOS Improper Obligations or Retention of DoD Funds
                                     (in millions)
                                     Task     Task      In-County
          Inappropriate Action       Order    Order        Air        Other      Total
                                     4305     5375       Support
        Moved or potentially
        moved funds not in
        compliance with Federal
                                      $2.59   $49.85                              $52.44
        appropriations limitations
        and outside the scope of
        reimbursable agreement
        Obligated funds outside
        the scope of reimbursable      1.15                           $21.32       22.47
        agreement
        Did not return DoD funds
        that DOS was unlikely to      68.21                  $23.04     3.99       95.24
        expend
        Obligated funds without
                                                                        2.25        2.25
        adequate documentation
           Total                     $71.95   $49.85         $23.04   $27.56     $172.40
            Source: DoD OIG and DOS OIG analysis of DOS INL data.

Funds Moved Not in Compliance With Federal Limitations and
Reimbursable Agreements
DOS officials moved between $49.85 million and $52.44 million of DoD funds from the original
requirements to requirements not in compliance with Federal appropriations limitations and the
associated reimbursable agreements. Specifically, AQM improperly moved $49.85 million from


                                                 8
the original requirements to extend the period of performance for task order 5375, and INL may
have improperly moved an additional $2.59 million of expired funds on task order 4305 to
administrative costs. Both of these issues involve potential violations of the bona fide needs
rule.

The bona fide needs rule prohibits entities from obligating funds unless the entity had a
legitimate, or bona fide, need in the fiscal years for which the appropriation was available for
obligation. Specifically, 31 U.S.C. § 1502 implements the bona fide needs rule. This statute
provides that the balance of an appropriation that is limited for obligation to a definite period is
available only for payment of expenses properly incurred during the period of availability or to
complete contracts properly made within that period of availability and obligated in accordance
with 31 U.S.C. § 1501.

Funds Improperly Moved to Extend Period of Performance for Task
Order 5375
AQM officials, in coordination with the INL Afghanistan and Pakistan Programs, and
Afghanistan, Iraq, Jordan, Support Division, improperly moved $49.85 million of expired DoD
funds from specific requirements on prior modifications to extend the period of performance for
task order 5375. Specifically, AQM modified task order 5375 to extend the period of
performance from January 30, 2010, through July 31, 2010, using $122.54 million of funds
already obligated for other requirements on the task order. Of the $122.54 million,
$49.85 million expired at the end of FY 2008 and FY 2009 ($22.20 million and $27.65 million,
respectively).

The task order period of performance was extended to ensure the ANP training program
continued from the originally planned transition date of January 31, 2010, to the new anticipated
transition date. AQM officials obtained prior approval from USD(C)/CFO to move the funds;
however, USD(C)/CFO personnel stated that they believed that they approved moving funds
between current requirements, not new requirements.

Previously, AQM properly obligated the $49.85 million for requirements within the scope of the
                                                   2007 and 2008 reimbursable agreements.
      Moving these expired funds from the          However, the periods of performance for these
    original period of performance to a new        requirements expired between November 24,
    period of performance outside the funds’       2009, and February 17, 2010. Moving these
  period of availability was potentially not in    expired funds from the original period of
   compliance with the bona fide needs rule.       performance to a new period of performance
                                                   outside the funds’ period of availability was
potentially not in compliance with the bona fide needs rule. Therefore, in 2010, AQM officials
may have improperly moved DoD funds to a period of performance in which the funds were not
available for obligation.

INL and USD(C)/CFO officials should work together to ensure that available funds from the
correct years are obligated for the requirements and take other appropriate action as necessary.
In addition, USD(C)/CFO officials should develop procedures to ensure that they monitor future
agreements in enough detail to ensure compliance with Federal appropriations law.


                                                  9
Funds Potentially Moved From Task Order 4305 to Administrative Costs
INL officials may have improperly moved $2.59 million of DoD funds after the funds expired on
September 30, 2007, to cover administrative costs in violation of the bona fide needs rule. The
$2.59 million was part of task order 4305, modification 17, dated February 8, 2007, totaling
$185.55 million. On September 8, 2008, AQM deobligated $2.59 million after identifying the
obligation was not needed. INL should have then returned the deobligated funds to DoD.
Instead, INL officials stated they moved the funds to pay INL administrative expenses, although
they could not provide documented justification that the reobligation was within the scope of the
2006 reimbursable agreement. Further, INL officials could not provide documented support that
they actually moved the funds, or offer any explanation as to the INL administrative costs paid.

The Executive Director of INL stated that INL intends to return the $2.59 million. We agree that
INL should return the $2.59 million of DoD funds that DOS deobligated from task order 4305.
INL should also determine whether it improperly moved the funds to pay for administrative costs
and take appropriate action. In addition, USD(C)/CFO officials should establish a process to
track the return of the DoD funds.

Funds Obligated Outside the Scope of the Reimbursable Agreements
INL officials obligated $22.47 million of DoD funds for programs outside the scope of the
reimbursable agreements, which required the funds to be used solely for the ANP training
program. Specifically, INL officials obligated the $22.47 million for a United Nations LOTFA
contribution, the Federal Prosecutors Program, counternarcotics personnel salaries, travel costs,
and a DynCorp equitable adjustment–none of which supported the ANP training program. When
INL officials inappropriately obligated funds, it potentially violated the purpose statute, 10 which
requires that entities apply appropriations only to the objects for which the appropriations were
made, except as otherwise provided by law.

Reimbursable Agreement Did Not Provide for United Nations
LOTFA Contribution
INL officials improperly obligated $9.50 million of DoD funds from the 2006 reimbursable
agreement. Specifically, the INL officials obligated the $9.50 million to make a United Nations
LOTFA contribution to pay Afghanistan police salaries and to fund additional pay-and-rank
reform initiatives; however, these obligations were outside the scope of the reimbursable
agreement, and they did not support the ANP training program. INL officials stated that they
used DoD funds to make the United Nations LOTFA contribution because DoD was delayed in
providing funding for the ANP training program, which caused INL to use its own funds to
continue to support the program. Therefore, INL officials stated that this resulted in INL not
having sufficient funds to honor the LOTFA commitment made in June 2006. INL officials also
stated that DoD officials agreed to fund the INL LOTFA commitment using the
2006 reimbursable agreement. However, we questioned officials from the USD(P),
USD(C)/CFO, and DSCA during the audit, and officials stated they were unaware that INL had
obligated DoD funds for a LOTFA contribution.



10
     Section 1301(a), title 31, United States Code.


                                                      10
INL officials also provided documentation indicating that a draft of the 2006 reimbursable
agreement initially included $31 million for a LOTFA contribution from DoD. However, the
final signed reimbursable agreement did not include any funding for a LOTFA contribution.
INL could not provide an explanation as to why the LOTFA amount was not included in the final
2006 reimbursable agreement or why the amount was much greater than $9.50 million.

INL, USD(P), and USD(C)/CFO officials should determine whether DoD approved the
$9.50 million INL obligated outside the scope of the 2006 reimbursable agreement. If officials
do not reach an agreement, INL should return to DoD the $9.50 million of DoD funds obligated
for a LOTFA contribution, which was outside the scope of the reimbursable agreement and did
not support the ANP training program.

Reimbursable Agreement Did Not Provide for the Federal
Prosecutors Program
INL officials improperly obligated $1.15 million of DoD funds from the 2006 and 2007
reimbursable agreements. Specifically, INL officials obligated $1.15 million for the Federal
Prosecutors Program, which was outside the scope of the agreements. 11 INL officials obligated
the funds on task order 4305 for criminal investigative advisors, whose primary responsibilities
were to mentor the Afghan police investigators assigned to the Criminal Justice Task Force (the
Task Force) for the Federal Prosecutors Program, which was not part of the ANP training
program. According to an agreement between the Department of Justice and INL, the criminal
investigative advisors supported the Task Force and stated it would be funded through INL. The
agreement did not state that the Afghan police investigators assigned to the Task Force were part
of ANP.

INL officials should return the $1.15 million of DoD funds obligated for the Federal Prosecutors
Program, or provide documentation to USD(P) and USD(C)/CFO officials and obtain their
agreement that the $1.15 million was within the scope of the reimbursable agreement.

Reimbursable Agreement Did Not Provide for Travel Costs
INL officials improperly obligated $14,996 of DoD funds from the FY 2007 reimbursable
agreement. Specifically, INL officials funded an INL employee’s travel costs for a 3- to
4-month rotation to the U.S. Embassy in South Korea. Although the reimbursable agreement
permitted INL to pay for administrative expenses directly related to the ANP training program,
the purpose for this travel was for the INL employee to gain experience and familiarity with
Embassy operations, which is clearly outside the scope of the reimbursable agreements. INL
officials stated that they originally interpreted the travel costs to be an indirect cost for training
an employee dedicated to the ANP training program.

The INL Executive Director stated that INL would return the funds to DoD. We agree that INL
should return the $14,996 of DoD funds obligated for the travel costs, which was outside the
scope of the reimbursable agreement and did not support the ANP training program.

11
  The Department of Justice Federal Prosecutors Program provides criminal law reform assistance, training,
mentoring, and support for Criminal Justice Task Force, who investigates and prosecutes high- and mid-level
narcotics-related offenses. In addition, the Federal Prosecutors Program provides criminal law advice to
U.S. Embassy and Afghan officials and to U.S. law enforcement.


                                                       11
DynCorp Equitable Adjustment
The INL officials improperly obligated $11.81 million of DoD funds provided in the FY 2006
reimbursable agreement. Specifically, INL officials obligated the $11.81 million for a DynCorp
equitable adjustment that related to CIVPOL contract task order S-AQMPD-04F-0460, awarded
in July 2004, which was prior to the 2006 reimbursable agreement. The equitable adjustment
compensated DynCorp for excess charges it incurred because of INL delays during the design
and construction of regional training centers. An internal INL memorandum, dated October 10,
2006, specified that the equitable adjustment funds should come from the FY 2006 INL budget.
Instead of using funds from the INL budget, INL improperly used DoD appropriations.

The INL Executive Director stated that INL would return the $11.81 million. We agree that INL
officials should return the $11.81 million of DoD funds obligated for the DynCorp equitable
adjustment, which was outside the scope of the reimbursable agreement and did not support the
ANP training program.

Unexpended Funds That INL Should Have Returned to DoD
INL officials did not return to DoD any of the $95.24 million it was unlikely to expend.
Specifically, INL records showed that INL did not return any of the following amounts:

     •   $68.21 million of obligations INL was unlikely to expend for task order 4305,
     •   $23.04 million of obligations INL was unlikely to expend for air support
         (contract S-AQMPD-05-C-1103), and
     •   $3.99 million of DoD funds never obligated by DOS.

Task Order 4305
As of March 31, 2011, DOS officials had not implemented a recommendation made in the
February 9, 2010, joint audit report to identify and return obligations that INL was unlikely to
expend on task order 4305. Instead, according to INL records, INL officials did not deobligate
the funds, but continued to retain $68.21 million of the $509.93 million 12 (13 percent) of DoD
funds the INL had obligated for task order 4305, related to the ANP training program. The funds
were not deobligated on task order 4305 even though the contract period of performance ended
in January 2010.
According to INL records provided in January 2011, DOS paid the last significant task
order 4305 invoice in February 2010 and had not received additional invoices since
September 2010. Also, according to INL records, although DynCorp had outstanding invoices in
the amount of $19.72 million, INL officials rejected $19.59 million of those invoices at least
once, primarily because of insufficient supporting documentation.
Despite the outstanding invoices, INL officials were unlikely to expend a significant portion of
the $68.21 million. Specifically, on March 31, 2011, DynCorp verified in a memorandum that

12
  INL officials obligated a total of $511.08 million of DoD funds on modifications for task order 4305. However,
DOS improperly obligated $1.15 million related to the Federal Prosecutors Program, which was outside the scope of
the reimbursement agreements. Therefore, we only reviewed the unexpended obligations for $509.93 million that
were properly obligated for ANP training requirements.


                                                       12
INL could deobligate $53 million on task order 4305. 13 Table 4 provides a breakdown of the
unexpended obligations for task order 4305 by year, obligation amount, and unexpended amount.
There is no direct correlation between the $53 million DynCorp certified as available for
deobligation and the amounts in Table 4.
            Table 4. Breakdown of Task Order 4305 Unexpended Obligations
                                                  (in millions)

                  Funds                 Funds
                                                              Obligated           Unexpended
                Expiration            Cancellation

             9/30/2007             9/30/2012                        $185.55                $11.29
             9/30/2007             9/30/2012                          18.55                 14.65
             9/30/2007             9/30/2012                           0.23                  0.00
             9/30/2007             9/30/2012                           0.58                  0.02
             9/30/2007             9/30/2012                           3.67                  2.12
             9/30/2007             9/30/2012                           1.03                  0.02
             9/30/2007             9/30/2012                         135.32                 25.90
             9/30/2008             9/30/2013                         152.35                  9.84
             9/30/2008             9/30/2013                           2.81                  0.69
             9/30/2008             9/30/2013                           5.75                  1.12
             9/30/2008             9/30/2013                           0.12                  0.12
             9/30/2008             9/30/2013                           2.99                  1.94
             9/30/2008             9/30/2013                           0.95                  0.50
               Total                                                $509.93                $68.21

The INL Executive Director stated that INL was in the process of deobligating the $53 million
that DynCorp verified could be deobligated. We agree that INL officials should deobligate and
return the DoD portion of $53 million that DynCorp certified was not used. In addition, INL
officials should determine whether the remainder of the $68.21 million would likely be
unexpended and, accordingly, deobligate and promptly return funds to DoD.

In-Country Air Support Lacked Supporting Documentation
INL officials did not return an estimated $23.04 million of obligations that INL was unlikely to
expend for in-country air support on contract S-AQMPD-05-C-1103. Specifically, INL
obligated approximately $21.90 million in 2009 and still had $5.60 million of obligated funds
remaining. In addition, INL obligated $34.65 million in 2010 and still had $17.44 million of
obligated funds remaining. The 2010 funds had been originally obligated by the contracting
officer through a contract modification that had a period of performance ending in October 2010.
Therefore, it was unlikely that INL officials would expend a significant portion of the funds still
obligated. Table 5 summarizes the budgetary tracking spreadsheet data for in-country air support
obligations by the date the funds expired and the amount of unexpended obligations remaining.

13
  INL stated that a portion of the $53 million related to DOS funds. INL stated that DynCorp provided this
deobligation amount to INL, and we did not examine DynCorp’s detailed numbers.


                                                        13
                      Table 5. DOS In-Country Air Support Obligations
                                        (in millions)

              Funds Expiration     Funds Cancellation    Obligated     Unexpended

              9/30/2007                 9/30/2012            $18.50               0
              9/30/2008                 9/30/2013             13.12               0
              9/30/2009                 9/30/2014             19.80           $5.60
              9/30/2009                 9/30/2014              2.10               0
              9/30/2010                 9/30/2015             33.39          $17.44
              9/30/2010                 9/30/2015              1.26               0
                Total                                        $88.17          $23.04

INL officials stated that they were in the process of deobligating the $5.60 million; they further
stated that it was still too early to request deobligation for the unexpended $17.44 million.
However, the period of performance ended in October 31, 2010. INL officials should review
these obligations and determine the amount that should be deobligated and returned to DoD.

Unobligated DoD Funds
INL officials did not return $3.99 million of DoD funds that DOS had not obligated as of
March 31, 2011. The reimbursable agreements required that INL obligate these funds by a
certain date or, in some instances, provide an obligation plan within 10 workdays of that date.
For the $3.99 million, DOS neither obligated the funds by the required date nor provided an
obligation plan within the required 10 workdays. Table 6 shows the required obligation date and
the amount of funds unobligated.

                          Table 6. Summary of Unobligated DoD Funds
                                          (in millions)
                            Date Obligation
                                                   Unobligated
                            Must Occur By
                          7/30/2008                        $0.53
                          7/31/2009                          0.01
                          7/31/2009                          0.08
                          8/1/2010                           0.01
                          12/15/2010                         3.36
                             Total                         $3.99

INL officials should return the $3.99 million of unobligated funds to DoD in accordance with the
reimbursable agreements, and no later than August 31, 2011.

Adequate Documentation Was Not Maintained
INL officials obligated $2.25 million of DoD funds without maintaining adequate supporting
documentation. The reimbursable agreements required that INL maintain “complete records and


                                                14
accounts” and exercise due diligence with respect to the use of funds provided. However, INL
obligated funds for $1.65 million of 2006 administrative salaries and $600,000 of
2008 administrative salaries without adequate supporting documentation.

Specifically, INL officials obligated $1.65 million of DoD funds from the 2006 reimbursable
agreement to pay back the salaries of DOS personnel without adequate supporting
documentation. INL labeled these salaries as counternarcotics on the budgetary tracking
spreadsheet; however, INL officials stated that label was incorrect, and the salaries related to
INL personnel supporting the ANP training program. However, INL did not provide
documentation that these personnel were supporting the ANP training program.

INL officials obligated $604,847 of DoD funds for 2008 administrative costs without adequate
supporting documentation. Of that $604,847, INL recorded an obligation of $435,490 on the
budgetary tracking spreadsheet for “salaries to pay back Washington PD&S [Program
Development and Support]” and $169,357 for “benefits 28% payback to Washington PD&S.”
DoD provided the funds under the 2007 reimbursable agreement, in part for administrative costs
directly related to ANP training program activities. INL provided a spreadsheet that listed DOS
personnel names under a heading that they worked on the Afghanistan CIVPOL contract.
However, the list was not detailed enough to determine whether these personnel actually worked
on the DoD-funded CIVPOL task orders related to ANP training because, during that same time
frame, DOS had other internally funded Afghanistan CIVPOL task orders. Therefore, there was
a risk that DOS obligated DoD funds to pay for DOS personnel who supported the DOS-funded
task orders, and not the DoD-funded task orders.

INL officials should provide evidence that the $2.25 million of DoD-funded DOS salary
obligations were in accordance with the reimbursable agreement and supported the ANP training
program. If INL officials cannot provide evidence that $2.25 million supported the ANP training
program, INL should return the funds to DoD.

DOS Lacked Adequate Procedures for Use of DoD Funds
DOS officials lacked adequate procedures for obligating, monitoring, deobligating, and returning
                                                   DoD funds for the ANP training program.
       INL officials did not maintain adequate     INL often did not adequately document or
      documentation to support the use of DoD      explain why they improperly obligated,
     funds, and officials stated that they lacked  reobligated, and retained DoD funds. In
      historical knowledge of the rationale for    addition, INL officials did not maintain
   obligating DoD funds because they were not      adequate documentation to support the use
     present during the 2006-2007 time frame.      of DoD funds, and officials stated that they
                                                   lacked historical knowledge of the rationale
for obligating DoD funds because they were not present during the 2006-2007 time frame.

Procedures Needed to Improve Compliance With Reimbursable
Agreements and Federal Appropriations Limitations
DOS lacked adequate procedures for obligating, tracking, and documenting compliance with the
applicable reimbursable agreements and Federal appropriations limitations. Some personnel
from the INL Office of Resource Management; the Afghanistan, Iraq, and Jordan Support


                                                 15
Division; the Office of Afghanistan and Pakistan Programs; and the AQM office that provide
support for the obligation and disbursement of DoD funds did not fully understand the
responsibilities of each other’s offices. Specifically, they did not understand who was
responsible for:

   •   determining whether the DoD funds could be obligated for specific purposes;
   •   obligating and deobligating the funds; and
   •   maintaining the documentation needed to support that the funds were used for the ANP
       training program.

As a result, DOS officials we contacted had not determined or documented how obligations
                                             related to the scope of the reimbursable agreements
   Both INL and AQM deobligated the
                                             should be validated and recorded. For example, both
   same $2.24 million because they did
                                             INL and AQM deobligated the same $2.24 million
   not coordinate or understand which
                                             because they did not coordinate or understand which
        office was responsible for
                                             office was responsible for deobligating the DoD
       deobligating the DoD funds.
                                             funds. Specifically, the INL Office of Resource
Management, Budget Execution Division, identified that a contract modification was
overobligated and initiated action to deobligate the $2.24 million on March 23, 2010. AQM also
took action to address the overobligation and issued a modification on July 2, 2010, which
deobligated the same $2.24 million, causing DOS to deobligate $4.48 million in total. Multiple
INL officials stated they were puzzled by this action. INL officials needed to reverse the AQM
deobligation to correct the error.

Some INL and AQM officials also could not explain when it was appropriate to move funds
from one requirement in a modification to another requirement in a different modification.
Specifically, DOS officials believed it was acceptable to move funds from one requirement to
another without regard for the funds’ period of availability. However, the bona fide needs statute
clearly prohibits entities from obligating funds when the entity does not have a legitimate need in
the fiscal years for which the appropriation was available. Part of this confusion could have
resulted from the fact that appropriations law training is not required for officials in AQM and
some INL offices.

Finally, no INL office was responsible for maintaining documentation; consequently, it
sometimes took INL officials several months to find adequate evidence to determine whether the
obligation supported the ANP training program, and in some instances, INL officials had to
request documentation from personnel who were no longer working on the ANP training
program.

To prevent future confusion and ensure that the DoD funds are obligated in accordance with the
reimbursable agreements and appropriations law, INL officials should develop procedures to
clearly define each offices’ roles and responsibilities, properly obligate, track, and document the
use of funds, and ensure those funds are used for their specified purpose. In addition, both INL
and AQM officials should ensure that all employees responsible for obligating or disbursing
funds take an appropriations law course.




                                                16
DOS Monitoring and Tracking the Use of DoD Funds
Although officials in the INL Office of Resource Management, Budget Execution Division,
developed a budgetary tracking spreadsheet for monitoring the use of DoD funds, they lacked
specific procedures on how to update, maintain, and review that spreadsheet for accuracy. We
identified multiple errors in two versions of the budgetary tracking spreadsheet (July 2009 and
January 2011), including incorrect calculations, overobligations, and incorrect obligation
amounts. For example, on July 22, 2009, INL recorded obligations that exceeded the allowable
obligation of $388 million by $2.24 million.

We also noted six instances where the expended amount decreased between the July 2009 and
January 2011 versions of the budgetary tracking spreadsheets. There were six instances, totaling
more than $300,000, in which the July 2009 version of the spreadsheet had higher liquidated
amounts than the February 2011 version. The financial system data did not include transactions
that could explain these decreases in expended funds.

Finally, we noted two instances where INL officials recorded incorrect obligation dates for the
obligations. If INL officials had monitored and verified data recorded on the budgetary tracking
sheets, they could have quickly identified these errors.

Overall, the INL process for using spreadsheets to track budgetary information is manual, which
makes it prone to human error. Consequently, INL officials need detailed procedures related to
reimbursable agreements to verify that officials consistently monitor the budget tracking
spreadsheets so that obligations do not exceed funds received, only DoD-related obligations are
recorded, and expended balances do not exceed obligated balances.

DOS Should Return Unexpended Funds
DOS lacked adequate procedures to address when INL could appropriately deobligate and return
DoD funds, creating additional confusion among the INL and AQM officials. Some officials
stated that they could not determine the amount of excess or unused funds until the contracting
officer closed the contract and INL’s reconciliation team had completed the invoice review.
However, officials did not provide us with a written requirement that prevented them from
deobligating the funds prior to contract closeout. Other officials stated that a majority of the
funds could be deobligated when the contract was completed, whereas others stated that a
bilateral agreement was necessary in order to deobligate the funds, but they did not provide the
written requirement. The INL Resource Management, Deputy Executive Director, Procurement,
stated in an e-mail that INL did not deobligate excess DoD funds because, “Keeping up with
current business has been our [INL’s] and AQM’s first priority.”

INL officials need to develop specific written procedures for deobligating funds to include time
frames for when excess funds should be deobligated. For example, the DoD policy for
identifying excess obligations for deobligation includes triannual reviews of all unexpended
obligations. DoD reviews the unexpended funds three times a year to ensure the funds represent
bona fide needs. DoD focuses its review, in part, on unexpended obligations for which the
period of performance has expired. In another example, the U.S. Agency for International
Development deobligation guidebook states that before closeout, but after the contract
completion date, the obligating official may deobligate unneeded funds. Entities must determine


                                               17
the amount available for deobligation by computing the obligated amount less: (1) amounts
disbursed, (2) the estimated amount to be disbursed, and (3) a “cushion” amount that may be
required for closeout. It further states that personnel should use a threshold of $100,000 of
excessive residual funds when determining whether they should deobligate funds prior to
contract closeout.

INL had some general guidance for reviewing unexpended obligations, but should develop and
document more specific controls to return excess funds in a timely manner. Specifically, it
should develop policy that sets a reasonable deadline for contacting the contractor after the
period of performance has ended to determine the costs the contractor estimates it has incurred.
In addition, officials should determine another reasonable deadline to deobligate the funds based
on estimates from the contractor and INL officials.

DoD Did Not Adequately Monitor the Use of Funds
DoD officials did not adequately monitor whether INL obligated funds in accordance with the
reimbursable agreements or returned the excess funds in a timely manner. Although the
                                                reimbursable agreements required that INL
     DoD officials further stated that they     provide DoD a quarterly status report showing
     did not have procedures in place to        fund use, officials from USD(P), USD(C)/CFO,
    track funds provided by reimbursable        DSCA, and CSTC-A Comptroller stated that their
   agreements because they relied on INL        offices were not responsible for reviewing those
               to track the funds.              reports for compliance with the applicable
                                                reimbursable agreement. DoD officials further
stated that they did not have procedures in place to track funds provided by reimbursable
agreements because they relied on INL to track the funds. In addition, INL’s quarterly status
reports provided only line item data, which did not always include enough detail to make a
determination that the funds were obligated and expended in accordance with the reimbursable
agreements. However, the DoD Financial Management Regulation states that the ordering
activity must review all charges from the performing activity to ensure that amounts due are in
agreement with the reimbursable orders and are supported with a copy of the order or contract
and evidence of performance.

To ensure that DOS is properly obligating and expending funds in accordance with the
reimbursable agreements, DoD officials need to develop and implement procedures requiring
reviews of INL obligations and expenditures to ensure they are within the scope of the
reimbursable agreements. The procedures should identify the responsible DoD office and ensure
that INL’s status reports provide sufficient detail to allow DoD to determine whether the
obligations and expenditures are within the scope of the reimbursable agreements.

In addition, DoD did not monitor whether INL returned excess funds in a timely manner. For
example, the DoD reimbursable agreement required only that INL obligate the funds by a certain
date, but did not require that INL return the excess obligations in a timely manner. A DSCA
official requested INL Office of Resource Management, Budget Execution Division officials to
provide a status of the unexpended obligations, along with other prior audit report
recommendations. INL stated they never provided an official response because DSCA did not



                                               18
provide the requested clarification for one issue and because the recommendation was not
directed to INL, so they did not believe it was appropriate to respond.

DoD officials should implement procedures to ensure that future agreements include a
requirement that INL identify and return excess funds within a specified time period. This would
assist DoD to be in compliance with the current DoD Regulation 7000.14-R, “DoD Financial
Management Regulation,” volume 3, chapter 8, which requires DoD activities to reconcile
obligations with performance on the task order to identify and coordinate the deobligation or
return of expiring, expired, or excess funds. In addition, DoD personnel are required to
document and deobligate the funds within 10 work days after they identify the need for
deobligation.

Finally, we noted that DoD lacked controls over maintaining the official reimbursable
agreements. Specifically, between DoD and DOS offices, there were three versions of the
2006 reimbursable agreement. All three versions contained multiple discrepancies among them,
including differences in the signature of the DoD official, the date by which the funds were to be
obligated, the type of agreement (reimbursable versus order), and the points of contact for DoD.
To ensure in the future that each agency maintains and follows the same official reimbursable
agreement, DoD, as the purchasing agency, should implement procedures to maintain the official
signed reimbursable agreement.

Support for ANP Training Program Was Reduced by Improper
Obligations and Retained Funds
The ANP training program received less DoD financial support than the value of DoD funds
provided due to INL’s improper obligation and retention of between $120.30 million and
$122.55 million. DOS may have improperly augmented both DOS and DoD appropriations by
$74.91 million, which potentially could result in Antideficiency Act violations. Table 7 provides
a breakdown of the amount of support that the ANP training program did not or may not have
received and the potential Antideficiency amount.

During discussions with INL officials, they stated that they took all programmatic actions
requested by DoD and, therefore, the DoD ANP training program was fully supported. The audit
did not include a review of all ANP training program requirements requested by DoD. However,
the ANP training program did not benefit from between $120.30 million and $122.55 million of
DoD-transferred funds that were obligated outside the DoD ANP training program requirements
or not expended at all.




                                               19
                             Table 7. Reduced ANP Training Program Support
                                and Potential Antideficiency Act Violations
                                               (in millions)
                                                Potentially
                                                                  Potential                           Fiscal
                               Reduced ANP       Reduced
                                                                  Amount           Potential           Year
                                 Training          ANP
                                                                  ANP Did        Antideficiency       When
                                 Program         Training
                                                                 Not Benefit     Act Violation        Funds
                                  Benefit        Program
                                                                   From                               Expire
                                                  Benefit
     Reobligated outside
     scope of
     reimbursable
     agreement                        $2.59                             $2.59              $2.59           2007
     Moved expired
     funds to new ANP
     training
     requirements                                                                          49.85       2008-09
     Obligated outside
     scope of
     reimbursable
     agreement                        22.47                             22.47              22.47       2007-08
     Did not return likely
     unexpended or
     unobligated funds                95.24                             95.24                          2007-11
     Obligated without
     supporting
     documentation                                      2.25             2.25                          2007-08
      Total                         $120.30            $2.25         $122.55              $74.91


ANP Training Program Did Not Receive All Benefits
The ANP training program received less DoD financial support than the value of DoD funds
provided due to INL’s improper obligation and retention of funds. As a result, the ANP training
program did not benefit from between $120.30 million and $122.55 million. DoD could realize a
monetary benefit when INL returns up to $122.55 million and puts the funds to better use
supporting other Afghanistan requirements. Specifically, INL should return $120.30 million to
DoD, and both INL and DoD should properly document the return of funds. In addition, for the
remaining $2.25 million, INL officials could not provide documentation to support that the
DoD-funded obligations directly supported the ANP training program. INL officials should
provide adequate supporting documentation or return the $2.25 million to DoD, and both INL
and DoD should properly document the return of the funds.

DOS Misused ANP Training Program Appropriations
When DOS officials misused $74.91 million of ANP training program funds and potentially
violated the bona fide needs and purpose statutes, DOS may have augmented 14 other DOS and
DoD appropriations, which is another potential violation of appropriations limitations and

14
  The augmentation concept does not have a specific statute, but the concept has adequate statutory basis derived
from separate enactments.


                                                        20
potential Antideficiency Act violations 15 could occur. Whether an agency can correct the
violations to avoid an Antideficiency Act violation depends on the availability of appropriate
funds. When the agency has determined that an Antideficiency Act violation occurred, the
agency needs to immediately report all relevant facts and provide a statement of actions taken by
the agency head to the President and Congress. According to a Comptroller General opinion,
both the requesting and performing agencies could be at risk for the potential Antideficiency Act
violations.

DOS and DSCA officials should jointly open an investigation to determine whether
Antideficiency Act violations have occurred and take any appropriate action. In addition,
because there is confusion about the appropriateness of moving funds from one requirement to
another, there is an additional risk that DOS improperly moved funds on other task orders.
Therefore, DOS and DSCA officials should review all modifications that moved DoD funds
from one requirement to another.

Future Excess Funds Need to Be Identified and Returned
Lastly, INL could continue to retain or move excess funds associated with ongoing task orders
that were to be completed in FY 2011. Specifically, because task orders 5375 and 2708 were
ongoing, improvements in INL’s controls to ensure they deobligate and return excess funds in a
timely manner could result in additional funds returned to DoD. Additionally, since some of the
funds obligated to these task orders have not yet expired, the sooner INL identifies and returns
amounts that will not be expended, the greater flexibility DoD will have to reprogram these
funds in accordance with applicable laws and use them for other valid requirements.

Specifically, the period of performance for task order 5375 related to the DoD requirements was
scheduled to end on June 30, 2011. As of February 24, 2011, INL officials reported that it had
not expended $125.35 million related to task order 5375. Of these unexpended funds,
$87.75 million were still within the period of availability. Task order 2708 was scheduled to be
completed on July 15, 2011. Per INL records, as of February 24, 2011, $35.07 million of
unexpended obligations remained on this task order. Of the $35.07 million, $25.68 million do
not expire until the end of FY 2011. If INL officials returned to DoD prior to September 30,
2011, the obligations that INL was unlikely to expend, DoD could obligate the returned funds to
other valid requirements.

In conjunction with developing procedures to deobligate unneeded funds, INL officials should
identify and return the obligations INL was unlikely to expend for task orders 5375 and 2708 as
soon as possible, but no later than 6 months after the periods of performance for DoD-funded
requirements have ended, which provides DOS reasonable time to pay any additional invoices
that may be submitted.




15
  An Antideficiency Act violation occurs when entities make expenditures or incur obligations in excess of the
amounts available for appropriation.


                                                        21
Management Comments on the Finding and Our Response
INL Comments
The Acting Assistant Secretary, responding for the Executive Director, stated that INL continues
to develop and strengthen the operational systems and controls and appreciates working with the
oversight community to further that effort. However, he stated that INL was concerned about the
standard of “acceptable documentation” the audit team used to base some of its
recommendations. He further stated that INL and DoD agreed to terms in the reimbursable
agreements that were broadly written for flexibility and could be amended by mutual consent. In
addition, he stated that the audit team rejected documentation provided by INL that substantiated
mutual consent by INL and DoD stakeholders.

Our Response
We agree that the reimbursable agreements were broadly written and could be adjusted by
mutual consent. However, the reimbursable agreements required INL to maintain complete
records and accounts, and in certain instances, INL could not provide complete records
demonstrating that the obligations supported the reimbursable agreements. We disagree,
however, that INL provided documentation substantiating that INL and DoD mutually consented
to amend the reimbursable agreements. In certain instances, INL provided documentation that
substantiated that there were preliminary discussions between INL and DoD, but INL was unable
to provide documentation that DoD ultimately agreed to amend the reimbursable agreement.

Also, we followed up with officials from USD(C)/CFO, and they agreed with our conclusions.
However, based on the comments provided by the INL Acting Assistant Secretary and the
USD(C)/CFO Director of Operations, we revised the applicable recommendations, asking INL
and DoD officials to agree on whether certain obligations were proper.

NTM–A/CSTC–A Comments
Although not required to comment, the Deputy Commander for Programs agreed with the
findings and recommendations.

Recommendations, Management Comments, and
Our Response
Revised and Redirected Recommendations
As a result of management comments, we revised draft Recommendations A.1.b and A.5.a to
clarify that INL should return the recommended funds after coordinating with DoD. We also
revised Recommendation A.5.b.2 to clarify that INL should develop, implement, and document
adequate procedures to ensure INL uses DoD funds for specific purposes in accordance with
laws and documents the appropriate use. In addition, we redirected Recommendation A.8 to the
Director, DSCA rather than the USD(C)/CFO.

A.1. We recommend that the Executive Director, Bureau of International Narcotics and
Law Enforcement Affairs, in coordination with the Chief Financial Officer, Bureau of
Resource Management, return the $15.56 million of DoD funds that were outside the scope


                                               22
of the reimbursable agreement by August 31, 2011. Specifically, return and document the
following amounts:

       a. $2.59 million potentially moved to Department of State administrative costs.

       b. $1.15 million obligated for the Department of Justice Federal Prosecutors
Program, or provide documentation to the Under Secretary of Defense for Policy and the
Under Secretary of Defense (Comptroller)/Chief Financial Officer, DoD, and DoD officials
agree that the $1.15 million was within the scope of the reimbursable agreement.

      c. $14,996 obligated for Department of State travel costs to the U.S. Embassy in
South Korea.

       d. $11.81 million obligated for a DynCorp equitable adjustment for contract task
order S-AQMPD-04F-0460, awarded in 2004 before the 2006 agreement.

INL Comments
The Acting Assistant Secretary, responding for the Executive Director, agreed with
Recommendations A.1.a, A.1.c, and A.1.d, stating that INL intends to return $2.59 million of
administrative costs, $14,996 for travel costs to the U.S. Embassy in South Korea, and
$11.81 million for the equitable adjustment. He disagreed with Recommendation A.1.b, stating
that INL used the $1.15 million for the Federal Prosecutors Program, which was in support of the
criminal investigative training and mentoring for the ANP and not outside the scope of the
reimbursable agreements. Further, he stated that the Federal Prosecutors Program criminal
investigative advisors were engaged to specifically train and mentor Afghan police investigators,
and that DoD’s October 2006 spending plan clearly stated that Afghanistan Security Forces Fund
money provided to DOS would be used for criminal investigative training.

Our Response
The Acting Assistant Secretary’s comments were responsive to Recommendations A.1.a, A.1.c,
and A.1.d, and no additional comments are required. His comments were not responsive to
Recommendation A.1.b. Specifically, INL officials did not provide documentation that the
Federal Prosecutors Program supported the ANP training and mentoring. Instead, the
documentation INL officials provided showed that the mentors trained Afghan police
investigators assigned to the Criminal Justice Task Force. INL also did not provide
documentation that the Criminal Justice Task Force was part of the ANP training program and
eligible to receive training within the scope of the reimbursable agreement.

In addition, although the audit team requested all supporting documentation to validate these
costs, INL officials never discussed nor provided the DoD 2006 spending plan. Therefore, we
cannot comment on the validity of the statement regarding the plan. Accordingly, we revised
Recommendation A.1.b to state that INL should return the $1.15 million unless it provides
documentation to officials within USD(P) and USD(C)/CFO and those officials agree that the
Federal Prosecutors Program was within the scope of the reimbursable agreements. We request
that INL provide comments on the final report.



                                               23
A.2. We recommend that the Executive Director, Bureau of International Narcotics and
Law Enforcement Affairs, in coordination with the Contracting Officer, Bureau of
Administration, Office of Logistics Management, Office of Acquisitions Management:

        a. Determine how much of the $68.21 million of unexpended obligations
remaining on task order S-AQMPD-05F-4305 can be deobligated. As part of the review,
include the DoD obligation amount that DynCorp certified as available for deobligation, as
well as an analysis on the remaining unexpended obligation amounts. In addition, provide
the Department of State, Office of Inspector General, supporting documentation for the
remaining amount of the $68.21 million that the Bureau of International Narcotics and
Law Enforcement Affairs identifies as still valid.

INL Comments
The Acting Assistant Secretary, responding for the Executive Director, neither agreed nor
disagreed with the recommendation. He stated that INL would work with AQM to review the
$68.21 million of unexpended obligations to determine the amount it can deobligate, and that it
would provide supporting documentation to DOS IG on the remaining balance.

Our Response
The Acting Assistant Secretary’s comments met the intent of the recommendation. No
additional comments are required.

       b. Determine how much of the $23.04 million of DoD unexpended obligations
remaining on the in-country air support contract (S-AQMPD-05-C-1103) can be
deobligated. In addition, provide the Department of State, Office of Inspector General,
supporting documentation for the remaining amount of the $23.04 million that the Bureau
of International Narcotics and Law Enforcement Affairs identifies as still valid.

INL Comments
The Acting Assistant Secretary, responding for the Executive Director, neither agreeed nor
disagreed with the recommendation. He stated that INL reviewed the $23.04 million of
expended obligations and identified that $15.6 million would be deobligated and returned to
DoD.

Our Response
The Acting Assistant Secretary’s comments were partially responsive. Although the comments
addressed determining how much of the $23.04 million could be deobligated, they did not state
that INL would provide DOS IG with supporting documentation for the remaining amount that
INL identified as still valid. We request that INL provide comments on the final report.

A.3. We recommend that the Executive Director, Bureau of International Narcotics and
Law Enforcement Affairs, provide supporting documentation to the Department of State
Inspector General by July 29, 2011, for the $2.25 million of unsupported obligations
identified in this report or return the $2.25 million to Department of Defense by




                                               24
August 30, 2011. Specifically, the Executive Director should review and, if necessary,
deobligate the following amounts:

       a. $1.65 million obligated for Department of State salaries using DoD funds
          provided in the 2006 reimbursable agreement.

       b. $604,847 for Department of State personnel salaries.

INL Comments
The Acting Assistant Secretary, responding for the Executive Director, neither agreed nor
disagreed with the recommendation. He stated that INL would update the supporting documents
for the $2.25 million identified and take the necessary action to deobligate and return funds as
appropriate.

Our Response
The Acting Assistant Secretary’s comments were partially responsive to
Recommendation A.3.a-b. Although he stated that INL would update supporting documents and
take the necessary action to deobligate and return funds, he did not state that INL would provide
DOS IG with documentation by July 29, 2011, for the $2.25 million of unsupported obligations
or return the $2.25 million to DoD by August 30, 2011. We request that INL provide comments
on the final report.

A.4. We recommend that the Executive Director, Bureau of International Narcotics and
Law Enforcement Affairs, in coordination with the Contracting Officer, Bureau of
Administration, Office of Logistics Management, Office of Acquisitions Management,
identify and return unexpended obligations not likely to be expended as soon as possible,
but no later than 6 months after the period of performance for DoD-funded requirements
related to task order S-AQMMA-08F-5375 and S-AQMMA-10F-2708 ends.

INL Comments
The Acting Assistant Secretary, responding for the Executive Director, agreed with the
recommendation, stating that INL would return funds that clearly exceed the requirements within
6 months after the period of performance ends. He further stated that the final obligation
adjustments would be made after the contracting officer completes the formal closeout process.

Our Response
The Acting Assistant Secretary’s comments were partially responsive. We request clarification
on what measures INL will use to determine whether funds are “clearly” excess. In addition,
according to the comments, the funds will either be returned within 6 months after the period of
performance or after the contracting officer completes the formal closeout process, which could
be 3-to-5 years. Therefore, we also request clarification on how INL will ensure that the funds
that are not “clearly” excess at the 6-month mark do not remain obligated for the entire
3-to-5 years, but are deobligated and returned to DoD as soon as possible. We request that INL
officials provide clarification in their comments on the final report.




                                               25
A.5. We recommend that the Executive Director, Bureau of International Narcotics and
Law Enforcement Affairs:

       a. Return to DoD and properly record the $3.99 million of unobligated DoD funds
by August 31, 2011, unless INL provides documentation to the Under Secretary of Defense
for Policy and the Under Secretary of Defense (Comptroller)/Chief Financial Officer, DoD,
and DoD officials agree that the obligations were within the scope of the reimbursable
agreements.

INL Comments
The Acting Assistant Secretary, responding for the Executive Director, disagreed with the
recommendation, stating that the $3.99 million was obligated to cover administrative expenses
associated with the execution of the ANP program. He also stated that $57,000 remained
obligated and would be returned to DoD.

Our Response
The Acting Assistant Secretary’s comments were not responsive. INL officials did not provide
documentation that they obligated the $3.99 million. Specifically, INL records showed that, as
of February 20, 2011, the $3.99 million had not been obligated, even though the reimbursable
agreements required that INL obligate the funds by December 31, 2010. In addition, $630,000
of the $3.99 million had already expired on February 20, 2011. We revised the recommendation
to allow INL to provide documentation to DoD that it appropriately obligated the $3.99 million.
We request that INL provide additional comments on the final report.

        b. Develop, implement, and document adequate controls to ensure that the Bureau
of International Narcotics and Law Enforcement Affairs uses DoD funds for specific
purposes in accordance with laws and documents the appropriate use. Specifically,
officials should:

           1. Designate the appropriate offices responsible for ensuring that the obligation
directly relates to the requirements in the reimbursable agreements.

INL Comments
The Acting Assistant Secretary, responding for the Executive Director, agreed with the
recommendation and stated that INL would improve its standard operating procedures that
designate responsibilities and duties and better articulate controls.

Our Response
The Acting Assistant Secretary’s comments were responsive, and no additional comments are
required.

         2. Retain documentation supporting that the obligation is in compliance with the
reimbursable agreement requirements.




                                              26
INL Comments
The Acting Assistant Secretary, responding for the Executive Director, neither agreed nor
disagreed with the recommendation, stating that INL already has procedures for documenting
support, which is retained by the program office, contracting officer’s representative, and
financial management office.

Our Response
The Acting Assistant Secretary’s comments were not responsive. The procedures INL might
have for documenting and retaining supporting documentation that an obligation is in
compliance with applicable requirements were not adequate. For example, INL officials took
more than a month to provide us with documentation to support various obligations, and in some
instances, INL had to obtain the data from personnel who were no longer working on the
program. In addition, INL officials were sometimes unable to provide any documentation to
support obligations. We revised the recommendation for INL to develop, implement, and
document adequate controls. We request that INL provide comments on the final report.

       c. Develop and document controls to return excess funds in a timely manner.
Specifically,

           1. Develop policy that sets a reasonable deadline for contacting the contractor
after the period of performance has ended to determine the costs the contractor estimates
they have incurred.

           2. Determine another reasonable deadline to deobligate the funds based on
estimates from the contractor and Bureau of International Narcotics and Law
Enforcement Affairs officials.

INL Comments
The Acting Assistant Secretary, responding for the Executive Director, agreed with the
recommendation, stating that INL would update its current obligation control guidelines to
specify a reasonable deadline to initiate the necessary deobligation actions.

Our Response
The Acting Assistant Secretary’s comments were responsive, and no additional comments are
required.

        d. Develop controls for the officials responsible for ensuring DoD funds are
obligated in accordance with the reimbursable agreements and review the Bureau of
International Narcotics and Law Enforcement Affairs, Office of Resource Management,
Budget Execution Division, documentation to ensure that the spreadsheets for tracking
DoD funds do not include DOS-funded obligations.




                                               27
INL Comments
The Acting Assistant Secretary, responding for the Executive Director, neither agreed nor
disagreed with the recommendation. He stated that INL would implement standard operating
procedures to clarify roles and responsibilities, as well as provide specific guidance for
confirming compliance with reimbursable agreements.

Our Response
The Acting Assistant Secretary’s comments were partially responsive. Although he stated that
INL would implement standard operating procedures and provide guidance for ensuring
compliance with the reimbursable agreements, he did not state that INL would review
documentation to ensure that spreadsheets for tracking DoD funds did not include DOS-funded
obligations. We request that INL provide comments on the final report.

       e. Develop controls to ensure that the Bureau of International Narcotics and Law
Enforcement Affairs, Office of Resource Management, Budget Execution Division,
personnel monitor budget tracking spreadsheets to ensure that obligations do not exceed
funds received and to prevent expended balances from exceeding obligated balances.

INL Comments
The Acting Assistant Secretary, responding for the Executive Director, neither agreed nor
disagreed with the recommendation, stating that INL had controls for monitoring budget tracking
spreadsheets to ensure that obligations did not exceed funds received and to prevent expended
balances from exceeding obligated balances. He also stated that reviews were conducted on a
continuing basis.

Our Response
The Acting Assistant Secretary’s comments were not responsive. Although he stated that INL
had controls in place, those controls were not adequate to ensure that obligations did not exceed
funds received or prevent expended balances from exceeding obligated balances. As discussed
in the report, there was an instance where the spreadsheet showed that INL had obligated
$2.24 million more than what was allowable. In addition, INL and Bureau of Resource
Management, Budget Execution Division, officials stated that they did not have any written
procedures to ensure that obligations did not exceed funds received or prevent expended
balances from exceeding obligated balances. We request that INL provide comments on the
final report.

      f. Require that all personnel involved in the obligating or disbursing of funds take
an appropriations law training class.

INL Comments
The Acting Assistant Secretary, responding for the Executive Director, neither agreed nor
disagreed with the recommendation, stating that the [Office of the Legal Adviser] is responsible
for all appropriations law issues.




                                                28
Our Response
The Acting Assistant Secretary’s comments were not responsive. Although the Legal Adviser is
responsible for all appropriations law issues, INL must contact the Office to request a legal
opinion. If INL does not require that all personnel involved in the obligating or disbursing of
funds take an appropriations law training class, there is a high risk that INL officials will not be
cognizant enough to know whether they should contact the Legal Adviser before obligating
funds. We request that INL provide comments on the final report.

A.6. We recommend that the Director, Bureau of Administration, Office of Logistics
Management, Office of Acquisitions Management, require all contracting officers and
supporting staff to take an appropriations law training class.

Bureau of Administration Comments
The Acting Assistant Secretary, responding for the AQM Director, neither agreed nor disagreed
with the recommendation. He stated that AQM recognizes the importance of training personnel
in appropriations law; however, it relies on the COR and personnel within the functional bureaus
and program offices to provide appropriations expertise. In addition, he stated that in the newly
revised Department COR training, there is a module on payment that includes invoice and proper
payments. Lastly, he said that AQM would explore sending select contracting officers and
supporting staff to appropriations law training courses.

Our Response
The Acting Assistant Secretary’s comments were partially responsive, as he stated that AQM
would explore sending select contracting officers and supporting staff to appropriations law
training courses. We recommended that AQM require all contracting officers and supporting
staff take the training because these personnel are involved with obligating and deobligating
funds and the training will help them understand the misapplication of appropriations law
principles, such as augmentations to appropriations, which could lead to Antideficiency Act
violations. Therefore, we recommend that AQM reconsider its position on the recommendation
and provide comments on the final report.

A.7. We recommend that the Under Secretary of Defense (Comptroller)/Chief Financial
Officer, DoD:

        a. Establish procedures to verify and document that the Bureau of International
Narcotics and Law Enforcement Affairs promptly identifies and returns funds identified in
this report and listed in recommendations A.1, A.2, A.3, A.4, and A.5.

        b. In coordination with the Under Secretary of Defense for Policy, develop
procedures to ensure that all future reimbursable agreements require the Bureau of
International Narcotics and Law Enforcement Affairs to identify excess funds within a
specified time frame after the period of performance has ended.

      c. Develop controls to ensure that the appropriate DoD component monitors the
Bureau of International Narcotics and Law Enforcement Affairs obligation and



                                                 29
expenditure of DoD funds in accordance with the reimbursable agreements and applicable
laws and regulations.

      d. Develop controls to ensure that all necessary agencies have the official
reimbursable agreements.

USD(C)/CFO Comments
The Director of Operations, USD (C)/CFO, agreed with the recommendation, stating that for
Recommendation A.7.b, DoD has already begun to incorporate requirements into agreements.
For Recommendation A.7.c, he stated that the Department would develop controls to ensure the
proper DoD component monitors the obligation and expenditure of funds. In addition, he
requested that the report include a recommendation that INL provide all relevant financial
information without undue delay so the DoD components can make appropriate verifications.

Our Response
The Director’s comments were responsive, and no additional comments are required. We did not
add a recommendation to the report as requested by the Director because the existing
reimbursable agreement already requires that INL provide DoD copies of the contracts,
contractor invoices, and payments. Specifically, it requires that INL provide the DoD CFO point
of contact and CSTC–A with quarterly reports of goods and services, including accounting or
audit information, concerning all funds provided. The agreement further states that the requested
data are to be provided in sufficient detail to allow DoD to validate that the proposed use of the
funds is appropriate. In addition, the reimbursable agreement permits selected USD(C)/CFO,
Army-Comptroller, and CSTC–A personnel to review the task orders and information contained
in the statement of work. If INL does not provide requested documentation to DoD in a timely
manner, DoD officials should immediately elevate the issue within both management chains
until an acceptable resolution is obtained.

A.8. We recommend that the Assistant Secretary of State, Bureau of Resource
Management and Chief Financial Officer, and the Director, Defense Security Cooperation
Agency, perform a joint investigation of the potential Antideficiency Act violations for the
$74.91 million of funds obligated outside the scope of the reimbursable agreements or not
in compliance with Federal appropriations limitations. Specifically, they should investigate
the following amounts and take the appropriate action for:

       a. $2.59 million reobligated outside the scope of the reimbursable agreement and
period of funds availability.

       b. $49.85 million of obligations moved from original requirements to requirements
outside the period of funds availability for task order S-AQMMA-08F-5375. In addition,
review all other movements of DoD funds to ensure they were within the period of
availability.

      c. $9.50 million obligated for the United Nations Law and Order Trust Fund–
Afghanistan commitment.


                                               30
      d. $1.15 million obligated for the Department of Justice Federal Prosecutors
Program.

      e. $14,996 obligated for Department of State personnel to travel to the
U.S. Embassy in South Korea.

       f. $11.81 million for an equitable adjustment for task order S-AQMPD-04F-0460.

USD(C)/CFO Comments
The Director of Operations, USD(C)/CFO, agreed with the recommendation, but stated that the
recommendation should be redirected to DSCA to appoint an investigation official as DSCA is
the fundholder.

Our Response
The Director’s comments were responsive, and no additional comments are required. We
redirected the recommendation accordingly.

Bureau of Resource Management Comments Required
The Assistant Secretary, Bureau of Resource Management, did not comment on
Recommendation A.8. We request that the Assistant Secretary provide comments on the final
report.

A.9 We recommend that the Executive Director, Bureau of International Narcotics and
Law Enforcement Affairs; Under Secretary of Defense for Policy; and Under Secretary of
Defense (Comptroller)/Chief Financial Officer, DoD, reach an agreement as to whether the
$9.50 million obligation for a United Nations Law and Order Trust Fund–Afghanistan
contribution was appropriately obligated. If officials do not reach an agreement, the
Bureau of International Narcotics and Law Enforcement Affairs should return the
$9.50 million of DoD funds obligated for a United Nations Law and Order Trust Fund–
Afghanistan contribution.

INL Comments
The Acting Assistant Secretary, responding for the Executive Director, neither agreed nor
disagreed with the recommendation. He stated that INL would work with USD(C)/CFO and
other DoD officials to specifically address the LOTFA issue.

Our Response
The Acting Assistant Secretary’s comments were responsive, and no additional comments are
required.




                                             31
USD(P) and USD(C)/CFO Comments
The Director of Operations, USD(C)/CFO, in coordination with USD(P), agreed with the
recommendation, stating that it did not appear as if a proper DoD official approved the
expenditures. He also stated that the Training subactivity group provided the funds to INL,
which were not authorized to pay salaries, and therefore, INL did not appropriately use the funds.

Our Response
The Director’s comments were partially responsive. From his comments, it appeared as if DoD
determined that it was not appropriate for INL to use DoD funds for LOTFA. However, it is
unclear whether DoD discussed the inappropriate expenditure with INL. Once DoD discusses
the LOTFA contribution with INL and they reach an agreement, DoD should provide the results
of the decision to DoD IG. No additional comments are required.




                                               32
Finding B. INL Approved Contractor Invoices for
Costs That Were Not Authorized or Were for
Services Not Provided
From February 2007 through February 2011, the INL COR approved DynCorp invoices for the
ANP training program, even though the invoices included:

     • travel costs for $334,400 to attend weekly meetings that were not authorized in the
       contract;
     • labor costs for $352,297 related to schedules not allowed per the statement of work, not
       included in the original cost proposal, and not approved by the contracting officer;
     • labor costs for $449,406 for services that supporting records showed the contractor
       personnel did not provide and exceeded FAR limitations; and
     • materials and supplies for $938,454 that the contractor purchased without the proper
       Government purchase approval, proof of Government acceptance, or both, as required by
       the contract, Prompt Payment Act, FAR, and applicable DOS guidance.

This occurred because the COR and INL invoice review team did not always perform a detailed
review of invoices prior to payment and relied on the INL reconciliation team to identify
overpayments made to the contractor during their review of paid invoices years later. 16
Additionally, DOS officials did not consider the FAR requirement for prorating labor costs to be
applicable to the CIVPOL contract (task orders 4305 and 5375), and officials were unaware of,
or misinterpreted, some contract and FAR requirements for proof of Government acceptance.

As a result, DOS paid the contractor approximately $2.07 million for costs that were either not
authorized or for services not provided. If INL officials identify and AQM officials recover
those funds, they could be used for valid ANP training program requirements or other DoD
requirements. Further, unless the COR and INL invoice review team improve the invoice review
process prior to payment, DOS will likely continue to approve these types of costs.

INL officials took immediate action to partially address the unauthorized travel. Specifically, on
March 11, 2011, after we notified INL officials of our travel cost analysis, the COR directed
DynCorp on that same day to cease travel for the task order 5375 weekly meetings and, instead,
conduct those meetings by conference call.




16
  The COR, INL invoice review team, and reconciliation team all stated that the reconciliation team would be
performing a complete review of paid invoices for task orders 4305 and 5375. However, the INL Resource
Management, Deputy Executive Director, Procurement, later stated that the reconciliation team would not be
performing a review of invoices for task orders 4305 and 5375. See “Limited Review of Invoices Prior to Payment”
section for details.


                                                      33
INL Established Invoice Review and Reconciliation Teams to
Improve Quality
INL established two teams, a pre-payment review team and post-payment reconciliation team, to
review contractor invoices. These teams are comprised of both INL officials and personal
services contractors. Specifically, in 2006, INL established an invoice review team to perform a
pre-payment review of DynCorp invoices and supporting documentation in an attempt to
decrease the amount of overpayments made to contractors. As of February 2011, the COR and
invoice review team rejected 384 of 1,684 invoices 17 for DoD-funded DynCorp task orders 4305
and 5375. In most instances, the invoices were rejected because the contractor listed the
incorrect period of performance or referenced the wrong modification.

In 2007, INL established a reconciliation team to perform a detailed review of all invoices after
payment to validate that the invoice costs were allowable, allocable, and reasonable and to
recommend recovering costs from the contractor, if necessary. As of March 2011, the
                                                 reconciliation team reviewed DynCorp invoices
      The reconciliation team reviewed           for multiple DOS-funded task orders and
        DynCorp invoices for multiple            requested that DynCorp return approximately
    DOS-funded task orders and requested         $28.9 million for Iraq task orders and
     that DynCorp return approximately           $11 million for Afghanistan task orders. DOS
    $28.9 million for Iraq task orders and       officials requested that DynCorp return the funds
   $11 million for Afghanistan task orders.      for multiple reasons, to include incorrect billing
                                                 charges and duplicate payments. However, the
team leader for the reconciliation team stated that the team did not plan to begin its detailed
review of DoD-funded task orders 4305 (awarded in August 2005) and 5375 (awarded in
July 2008) until August 2011 and December 2011, respectively. The reconciliation team
estimated that the review would take approximately 8 to 12 months for each task order.

Reviews of DynCorp Systems Identified Control Weaknesses
From 2007 through 2010, Defense Contract Audit Agency (DCAA) officials reported
deficiencies in DynCorp’s business systems, to include labor accounting, billing, purchasing, and
other direct cost systems. In addition, the Defense Contract Management Agency (DCMA),
Corporate Administrative Contracting Officer, disapproved DynCorp’s purchasing system on
June 6, 2010. A DCMA review team initiated a followup review of the system in October 2010,
but the review was suspended because the team identified recurring internal control weaknesses
early in the review process. The DCMA Corporate Administrative Contracting Officer issued a
second memorandum on November 1, 2010, stating that the system would remain in a
disapproved status. These deficiencies and internal control weaknesses increased DynCorp’s
risk for producing inaccurate contractor invoices.

The February 2010, joint DoD IG and DOS IG audit report included a recommendation for
DCAA to conduct an invoice review for DoD-funded task orders 4305 and 5375. DCAA



17
  The total number of invoices was obtained from the INL invoice log. We did not test the accuracy of the invoice
log.


                                                       34
officials began auditing DynCorp incurred costs for the two task orders from August 2005
through April 2, 2010, and provided examples of their preliminary concerns, which we included
in this finding.

COR Approved Invoices for Costs That Were Not Authorized
or Were for Services Not Provided
From February 2007 through February 2011, the COR 18 approved contractor invoices for
payment that included costs that were either not authorized or for services not provided based on
contract and FAR requirements and DOS guidance. Specifically, the COR approved invoices for
travel costs not authorized, excess labor costs, and purchases without the required Government
purchase approval or proof of Government acceptance.

Travel Costs Not Authorized
From February 2007 through January 2011, the COR approved invoices for DoD-funded task
orders 4305 and 5375, which included travel costs not authorized. Specifically, the contractor
billed costs for personnel to travel from Texas to Washington, D.C., to attend weekly meetings,
totaling approximately $334,400 ($56,400 for task order 4305 and $278,000 for task
order 5375). 19

INL officials stated they held weekly meetings with contractor personnel to discuss operations in
Iraq and Afghanistan and to facilitate contractor participation in the invoice reconciliation
process for DOS and DoD-funded task orders. However, the weekly travel costs from Texas to
Washington, D.C., were not authorized in the contract. In addition, the contract required
DynCorp to maintain a local program management office in the Washington, D.C., metro area to
provide support for recruitment, logistics, financing, accounting, and other program management
related activities. Therefore, personnel from the DynCorp Washington, D.C., office should have
attended the weekly meetings to discuss contractor operations and provide invoice reconciliation
support, which would have significantly reduced travel costs.

Even though all of the travel costs were not authorized, we reviewed them to determine whether
the COR and invoice review team reviewed travel costs to ensure compliance with the FAR and
Federal travel regulations, as required by the contract. Those regulations require contractors to
(1) ensure travels costs are reasonable, (2) select the lowest airfare available, and (3) not exceed
the Government-approved per diem rates for lodging without adequate justification.

The COR did not review travel costs to ensure compliance with the applicable regulations.
Specifically, DynCorp charged the Government for unreasonable roundtrip airline tickets, a one
day rental car and parking fees of $104 even though other transportation methods would have
been less expensive, and hotel costs that exceeded per diem rates. For example, even though the
meetings occurred on the same day every week, one contractor official initially purchased a
roundtrip ticket for $335, but changed the airfare multiple times, which caused the price to

18
   For purposes of this report, “the COR” refers to the COR acting at that time. During the time frame covered by
the audit, there were three different CORs.
19
   For task order 5375, the contractor billed DOS approximately $645,000 in total travel costs for the weekly
meetings, but billed the additional $367,000 to other DOS-funded Iraq task orders.


                                                        35
                                             increase to $1,931. In addition, the contractor
   Even though the meetings occurred on      official needed a rental car or taxi because the
        the same day every week, one         official regularly stayed at a hotel close to the
  contractor official initially purchased a  DynCorp Headquarters, rather than near the DOS
   roundtrip ticket for $335, but changed    office, where the official could have used public
  the airfare multiple times, which caused   transportation or walked. Furthermore, the hotel
       the price to increase to $1,931.      rate exceeded the per diem rate. Finally, although
                                             the weekly meetings were held only on Tuesdays
and Wednesdays, travel costs included charges for up to 5 days.

INL officials took immediate action to prevent further unauthorized travel costs. Specifically, on
March 11, 2011, we notified INL officials of our travel cost analysis, and on that same day, the
COR directed DynCorp to cease travel for task order 5375 weekly meetings and, instead,
conduct those meetings by conference call. Although INL officials took action to prevent further
unauthorized travel, AQM should recover $334,400 from the contractor for the unauthorized
costs.

Labor Costs Not Included in the Statement of Work or Cost Proposal
For task order 5375, we selected a statistical sample of timesheets supporting labor costs for the
2-week pay period ending February 10, 2011. We found that the COR approved invoices for
daily labor costs not included in the statement of work, the contractor’s cost proposal, and not
approved by the contracting officer. (See Appendix C for details on the sampling plans and
calculations used for the daily costs and for the number of contractor personnel discussed in the
sections below). The contract statement of work states that the contractor’s personnel system is
to include a labor schedule for personnel with labor cost based on a 6-day workweek with a
maximum of 313 working days per year. It further states that in most cases, personnel will work
6 days a week with 1 day off. In addition, the contractor’s original cost proposal is also based on
a 6-day work week. Finally, the statement of work permits the contractor to work other
schedules if the contracting officer approved the schedule. According to INL officials, the
contractor did submit an alternate schedule; however, AQM officials stated they were not
specifically aware of any contractor proposal related to altering the work schedule. Therefore,
when the COR approved invoices with daily labor costs for 7 days instead of 6 days per week,
they approved costs not included in the contractor’s cost proposal.

During the 2-week billing cycle, 885 contractor personnel (56.7 percent) worked in excess of the
6-day requirement, and the supporting invoices showed that DynCorp billed and DOS officials
approved costs associated with the excess days worked. Specifically, for the 2-week billing
cycle, the COR approved DynCorp invoices containing $352,297 in labor costs that were over
the 6-day statement of work and contractor’s cost proposal. If this 2-week billing cycle is
indicative of the other 25 billing cycles in a year, DOS could have potentially approved costs not
included in the contractor’s cost proposal of approximately $9.16 million.

AQM officials should review the total costs that were approved but not included in the cost
proposal and determine whether they should take action to recover any of those costs.




                                                36
Excess Labor Costs
For task order 5375, we selected a statistical sample of timesheets supporting labor costs for the
2-week pay period ending February 10, 2011. We found that the COR approved invoices even
though the contractor billed for the entire fixed daily labor rates when contractor personnel did
not work the daily hours indicated in the contract cost proposal. According to the DynCorp cost
proposal that was incorporated into the contract, DynCorp’s labor days were a fixed length based
on the position; ranging from 8 to 12 hours for each day. Therefore, under the fixed-price labor
requirements, DynCorp personnel were required to work 8 to 12 hours to properly bill for the
fixed rates. If DynCorp personnel worked less the than required hours per day, the COR should
have required DynCorp to prorate the labor costs for only those hours worked, to ensure an
equitable assignment of costs, as allowed by FAR 52.246-4 (e), “Inspection of Services-Fixed-
Price.” Specifically, the FAR states that if any of the services do not conform to the contract
requirements, the Government may reduce the contract price to reflect the reduced value of the
services performed. Prorating the fixed price is also consistent with FAR 53.232-7 (a)(4),
“Payments under Time-and-Materials and Labor-Hour Contracts,” which requires the
Government to pay the contractor for the fractional hours worked when a fixed hourly rate is
used.

For the 2-week pay period ending February 10, 2011, 1,311 contractor personnel (84 percent)
worked less than the required 8- to 12-hour day, but the contractor billed and the COR approved
invoices for the fully daily rate. Using prorated labor rates, we found that the COR approved
invoices containing $449,406 for labor not provided. If this 2-week billing cycle is indicative of
the other 25 billing cycles in 1 year, DOS could potentially overpay the contractor approximately
$11.68 million.

AQM officials should recover $449,406 from the contractor for excess labor costs billed, and the
COR and INL invoice review team should increase the scope of the review of invoices prior to
payment to ensure the contractor is not billing for hours not actually worked.

Lack of Government Approval and Acceptance for Purchases
The COR approved invoices totaling $938,454 for materials and supplies the contractor
purchased without the required Government purchase approval or proof of Government
acceptance for task order 5375. This amount included $542,079 with no Government purchase
approval; $332,631 with no Government purchase approval and Government acceptance; and
$63,744 with no Government acceptance.

Government Did Not Approve Purchases
Our review of 24 contractor purchases 20 for task order 5375 showed that the contractor did not
always have the required Government approval prior to making purchases. Specifically, the
COR approved invoices for 17 of 24 purchases, valued at approximately $874,710, without
supporting documentation that a Government official approved the purchase as required by the
contract, INL standard operating procedures, and COR technical direction. According to the

20
  The nonstatistical selection of contractor purchases was based on high dollar values, and the items included
equipment, parts, cell phones, catered meals, fuel, and rental vehicles listed on 10 invoices. DynCorp submitted
invoices for these items from December 2008 through July 2010.


                                                        37
contract, the contractor was not to incur any cost-reimbursement costs without prior written
Government approval. INL standard operating procedures also required the contractor to obtain
written validation from a Government official for purchases exceeding a unit cost threshold of
$3,000, and the 17 purchases exceeded that threshold. The COR also issued a memorandum to
DynCorp on March 10, 2010, which required the contractor to obtain a signed purchase request
prior to making purchases.

During our review of the 24 purchases, we asked INL officials to provide the supporting
documentation that was not included with the invoice; however, INL officials did not provide the
requested documentation for 17 purchases. INL should provide DOS OIG with documentation
that a Government official approved the purchases. If INL cannot provide the documentation,
AQM officials should recover $874,710 from the contractor for those purchases.

INL’s lack of prior approval for purchases is a systemic issue, as discussed in the February 2010
joint audit report. Subsequently, the COR issued a second memorandum to the contractor on
January 14, 2011, reiterating that purchases for $3,000 and greater require Government approval.
The memorandum further stated that the approval should be documented through a Government-
signed purchase request prior to incurring costs for materials and supplies or services.

Our review did not include invoices and purchases submitted or approved after the January 2011
COR memorandum; therefore, the COR and INL invoice review team should increase the scope
of their review of invoices prior to payment to ensure the contractor had Government approval
for those purchases.

No Documentation of Government Acceptance
We tested 11 of the 24 purchases that required Government acceptance documentation and found
that the COR approved all 11 purchases, valued at approximately $396,375, for payment without
proof of Government acceptance as required by the Prompt Payment Act and FAR. 21 The
Prompt Payment Act requires Government acceptance be provided prior to payment. In
addition, FAR 32.905, “Payment Documentation and Process,” states that invoice payments are
to be supported by Government documentation that authorizes payment. That documentation
must include the date the designated Government official accepted the supplies or services and
the official’s signature, printed name, title, mailing address, and telephone number.

INL officials should provide DOS OIG proof of Government acceptance or documentation
showing that the DOS received the purchases. If INL officials cannot provide the
documentation, AQM officials should recover $396,375 from the contractor for those purchases.
Of the $396,375, purchases for $63,744 did not have proof of Government acceptance, and
$332,631 did not have either Government approval or Government acceptance. 22 Therefore,



21
   Of the 24 purchases, 11 required proof of Government acceptance. Proof can be a receiving report or other
documentation verifying receipt. The remaining 13 purchases were either for cost-reimbursement services or
supplies to perform the services, neither of which require Government acceptance.
22
   The $332,631 is part of the $874,710 identified in the previous section, “Government Did Not Approve
Purchases.”


                                                        38
when determining the amount to recover from the contractor for lack of Government acceptance,
AQM officials should consider the amount that also did not have Government approval to ensure
that they do not recover duplicate payments.

Limited Review of Invoices Prior to Payment
The COR approved invoices that included costs that were either not authorized or for services
not provided because the COR and invoice review team did not always perform a detailed review
of invoices prior to payment and relied on the INL reconciliation team to identify overpayments
made to DynCorp during their review of all paid invoices. INL officials stated that they did not
always perform a detailed review because they were required to approve invoices in a timely
manner to adhere to the Prompt Payment Act. The Prompt Payment Act requires agencies to pay
contractors within certain time frames, and if the agency pays late, the agency is required to pay
the contractor an additional interest payment. INL officials further stated that their review
consisted of:

    •   validating that the invoice cover page included items such as the invoice date, contract
        and vendor invoice number, and contact information;
    •   determining whether adequate funds were available to pay the invoice; and
    •   performing a cursory review of supporting documentation.

According to contract modification 17, “all invoices will be treated as provisional, subject to
subsequent reviews, audits and appropriate adjustments.” Therefore, the COR and invoice
review team only reviewed invoices for provisional payment and stated that the reconciliation
team would be conducting the post-payment reviews. DOS officials further stated that the
reconciliation team would identify the improper invoices that the COR approved, and DOS
would recover any overpayments from the contractor. Specifically, during their review of
invoices for payment, if the invoice review team questioned costs but did not have sufficient
evidence to reject the invoice, the team would attach to the invoice a memorandum for record for
the reconciliation team’s review. For example, after reviewing an invoice for labor charges, the
invoice review team recommended that the COR approve the invoice for payment, but attached a
memorandum for record that stated, “There are anomalies throughout that should be reviewed by
the AIJS [Afghanistan, Iraq, and Jordan Support Division] Reconciliation Team.” The
memorandum also stated, “Recommend that the AIJS Recon Team review both 5375-S1-0094R
with narrative and 5375-S2-0094 to determine final disposition.”

However, even though the reconciliation team had scheduled the review of invoices for task
orders 4305 and 5375 to begin in August 2011 and December 2011, respectively, the INL Office
of Resource Management, Deputy Executive Director, Procurement, stated on May 11, 2011,
that the reconciliation team would not be reviewing any invoices submitted under task orders
4305 and 5375. The Executive Deputy Director later clarified that the reconciliation team would
only be reviewing invoices submitted prior to January 1, 2007. Therefore, the team would not be
reviewing invoices submitted under task order 4305 from January 2007 through January 2010,
and would not be reviewing any invoices submitted under task order 5375 because it was
awarded in July 2008. Therefore, INL officials should take appropriate action to resolve the
potential risk of overpayments because INL officials were operating under different assumptions
and a less rigorous review occurred prior to payment and no reconciliation team review will


                                                39
occur post-payment. To decrease the amounts of overpayments made to the contractor, INL
officials should determine who will perform a 100-percent post payment review of invoices for
task orders 4305 and 5375. The 100-percent post payment review should be conducted to
identify travel costs that were not authorized, ensure timesheets are properly signed and
approved, identify any excess daily and hourly labor costs that were not included in the cost
proposal, and verify contractor material purchases have the support of a signed purchase request
and Government acceptance. INL officials should also recover costs from the contractor, if
necessary, and any additional costs identified during the 100-percent detailed invoice review that
were either not authorized or for services not provided.

Misinterpreting Requirements
DOS officials believed that because the labor rates were fixed and the FAR contained no
requirement to prorate daily rates, they could not prorate the rates when the contractor worked
less than the contractually agreed-upon hours per day. Although the FAR does not contain a
specific requirement for prorating daily rates, FAR 52.246-4(e), “Inspection of Services,” states
that if any contractor services do not conform to the contract requirements, the Government may
reduce the contract price to reflect the reduced value of the services performed. Therefore,
prorating labor rates would help to ensure that contractor personnel are paid only for the work
actually performed, which would reflect the actual value of services. DOS officials should have
applied this requirement to the daily rate and not paid contractors the full rate when they worked
as few as 4 hours a day.

AQM officials further stated that the intent of the daily rate was to avoid excessive overtime
costs. For example, when DOS originally paid the contractor based on hourly rates, the
                                          contractor was charging excessive hours of overtime
   When DOS paid the contractor a         each week, which was costly to the Government.
   daily rate, contractor personnel       However, when DOS paid the contractor a daily rate,
   worked significantly fewer hours.      contractor personnel worked significantly fewer hours.
                                          When we discussed our analysis with DOS officials,
they agreed that it was an issue of concern, but they stated that the intent of the daily rate was to
avoid excessive overtime costs and, therefore, they only reviewed invoices to ensure the
contractor was not charging overtime.

In addition, INL and AQM officials were unaware of, or misinterpreted, some contract and FAR
requirements for proof of Government acceptance. Specifically, INL officials stated that they
believed the contractor could accept materials and supplies on behalf of the Government.
However, this practice is an inherently governmental function and does not comply with the
Prompt Payment Act or FAR requirements.

INL Officials Need to Recover Funds
DOS paid the contractor approximately $2.07 million for costs that were either not authorized or
for services not provided. If INL officials identify and AQM officials recover those funds, they
could be used for valid ANP training program requirements or other DoD requirements. In
addition, although the period of performance for the DoD-funded task orders we reviewed was
scheduled to end June 30, 2011, Federal law permits the contractor to submit invoices for valid
charges after the period of performance ends. Therefore, unless the COR and invoice review


                                                 40
team improve their pre-payment review of invoices, the COR will likely continue to approve
costs that were either not authorized or for services not provided, thus decreasing the amount of
                                                      funds available for existing, valid ANP
    Unless the COR and invoice review team            training program requirements. To improve
       improve their pre-payment review of            the pre-payment review of invoices, INL
    invoices, the COR will likely continue to         officials should develop procedures to
  approve costs that were either not authorized       increase the scope of the pre-payment
  or not for services provided, thus decreasing       invoice review to validate travel costs are
   the amount of funds available for existing,        within the scope of the contract, supporting
   valid ANP training program requirements.           timesheets are signed and approved, labor
                                                      costs do not exceed the 6-day per week
requirement, labor costs are only billed for a full day’s work, and contractor-purchased materials
have supporting documentation of a Government-approved purchase request and proof of
Government acceptance.

In addition, some of the DoD funds transferred to DOS will cancel in September 2012. The
cancellation of funds would further decrease the amount available for existing, valid ANP
training program requirements or other DoD requirements, because canceled funds must be
returned to the U.S. Treasury general fund. Therefore, INL should take action to immediately
identify the personnel that will conduct the final post-payment review of invoices for the DoD-
funded task orders. This review should ensure that all invoices were properly approved and
identify invoices that should not have been approved. For those that should not have been
approved, DOS should recover funds from DynCorp and promptly return the funds to DoD for
use on valid requirements.

DCAA Reviews of DynCorp Timekeeping Records and Labor
Charges Identified Weaknesses
During their review of incurred charges for task orders 4305 and 5375, DCAA officials stated
they also found inadequate timesheets supporting labor costs for task order 4305. Specifically,
DCAA officials identified that timesheets were not always approved, signed and approved by the
same individual, or were not ratified 23 in accordance with DynCorp timekeeping polices, and
were, therefore, not authorized according to the FAR. According to FAR 31-201-2,
“Determining Allowability,” the contractor is responsible for accounting for costs appropriately
and maintaining records. Those records are to include supporting documentation, which
adequately demonstrates that the claimed costs are allowable in accordance with applicable
regulations and the contract, allocable 24 to the contract effort, and reasonable in amount. The
FAR further states that the contracting officer may disallow all or part of a claimed cost if it is
inadequately supported.



23
   An absent employee’s supervisor or administrator submits the timesheet, but the employee is required to ratify the
timesheet upon return.
24
   A cost is allocable if it (a) is incurred specifically for the contract; (b) both benefits the contract and can be
distributed to the contract in reasonable proportion to the benefits received; or (c) is necessary to the overall
operation of the business, even though a direct relationship to any particular cost objective cannot be shown
(FAR 31.201-4).


                                                         41
DCAA officials stated they were in the process of auditing the remaining charges incurred under
task order 5375, using April 3, 2010, as a starting date. Also, if requested and funded by DOS,
                                           DCAA officials stated they would audit charges
    Due to systemic internal control       incurred under DOS task order 2708 to determine
       weaknesses in the DynCorp           whether costs are allowable, allocable, and reasonable.
   billing system, DoD and DOS are         Additionally, because DoD has assumed contract and
      at an increased risk that the        oversight responsibility of the ANP training program,
     contractor could bill both DoD        DCAA will also be responsible for approving
    and DOS for the same charges.          contractor interim vouchers for provisional payment on
                                           the DoD contract. Due to systemic internal control
weaknesses in the DynCorp billing system, DoD and DOS are at an increased risk that the
contractor could bill both DoD and DOS for the same charges. Therefore, INL officials should
request and fund DCAA to review all claimed costs charged on both DoD and DOS contracts
from December 30, 2010, through July 15, 2011. In addition, INL officials should recover any
overpayments made to the contractor based on DCAA’s audits for task orders 4305 and 5375.

Recommendations, Management Comments, and
Our Response
B.1. We recommend that the Contracting Officer, Bureau of Administration, Office of
Logistics Management, Office of Acquisitions Management, in coordination with the
Executive Director, Bureau of International Narcotics and Law Enforcement Affairs,
increase the scope of the pre-payment invoice review for task order 5375 invoices to
identify unauthorized costs. Specifically, the Contracting Officer should develop
procedures to validate that:

       a. Travel costs are within the scope of the contract.

      b. Supporting timesheets are signed by the employee and authorized by a
supervisor.

       c. Labor costs do not exceed the 6-day-per-week contract requirement.

       d. Labor costs are prorated when contractor personnel work less than the
contractual daily hours.

       e. Supporting documentation for contractor-purchased materials and supplies
include a Government-approved purchase request and proof of Government acceptance.

AQM Comments Required
The AQM Contracting Officer did not comment on the recommendation. We request that in
commenting on the final report, the Contracting Officer provide details on how AQM plans to
increase the scope of the pre-payment invoice review for task order 5375 invoices to identify
unauthorized costs for each element discussed in Recommendations B.1.a-e. Please provide
comments by August 8, 2011.




                                               42
INL Comments
Although not required to comment on the recommendation, the Acting Assistant Secretary stated
that INL would work closely with the Contracting Officer to ensure the CORs and Government
Technical Monitors fully understand which costs are contractually permissible so they are better
equipped to identify unauthorized costs during the pre-payment invoice review for task
order 5375.

B.2. We recommend that the Executive Director, Bureau of International Narcotics and
Law Enforcement Affairs, determine who will conduct a 100-percent post-payment review
of invoices for task orders 4305 and 5375 and recover costs from the contractor if
necessary. Once it is determined who will conduct the review, the review should:

       a. Identify the total travel costs not authorized for the DynCorp personnel
traveling from Texas to Washington, D.C., for weekly meetings with the Bureau of
International Narcotics and Law Enforcement Affairs officials and request that the Bureau
of Administration, Office of Logistics Management, Office of Acquisitions Management,
recover funds from DynCorp for that amount.

        b. Determine whether timesheets were properly signed and approved by DynCorp
officials and request that the Bureau of Administration, Office of Logistics Management,
Office of Acquisitions Management, recover funds from DynCorp for that amount.

       c. Identify the excess daily and hourly labor costs paid based on a 6-day work week
and 8- to 12-hour day and request that the Bureau of Administration, Office of Logistics
Management, Office of Acquisitions Management, take appropriate action to ensure the
contract terms are complied with, which could include recovering funds.

       d. Request supporting documentation for contractor material purchases that did
not have a signed purchase request or Government acceptance. For the items for which
DynCorp cannot provide support, request that the Bureau of Administration, Office of
Logistics Management, Office of Acquisitions Management, recover funds from DynCorp
for that amount.

INL Comments
The Acting Assistant Secretary, responding for the Executive Director, neither agreed nor
disagreed with the recommendation. He stated that INL would appoint an independent audit
firm to review all invoice processes and controls and post January 2007 invoices for task orders
4305 and 5375. In addition, he stated that INL would engage DCAA to perform a review of
incurred costs audits for task orders 4305 and 5375.

Our Response
The Acting Assistant Secretary’s comments were partially responsive. Although he stated that
INL would appoint an independent firm to review invoice processes and controls and invoices,
he did not state what, specifically, the independent audit firm would look at when reviewing the
invoices. That is, he did not state whether the independent audit firm would conduct a



                                               43
100-percent review and specifically look at the elements discussed in Recommendations B.2.a-d.
We request that INL officials clarify the type of review the independent firm is to conduct in
their comments on the final report.

B.3. We recommend that the Executive Director, Bureau of International Narcotics and
Law Enforcement Affairs, in coordination with the Director, Bureau of Administration,
Office of Logistics Management, Office of Acquisitions Management:

       a. Request in writing and fund a review by the Defense Contract Audit Agency to
determine whether costs associated with task order S-AQMMA-10-F-2708 were allowable,
allocable, and reasonable.

INL Comments
The Acting Assistant Secretary, responding for the Executive Director, agreed with the
recommendation, stating that AQM was responsible for assigning DCAA to audit DOS contracts.
He also stated that INL would request that AQM request DCAA to perform the recommended
audit.

Our Response
The Acting Assistant Secretary’s comments were responsive, and no additional comments are
required.

        b. Request in writing and fund a review by the Defense Contract Audit Agency of
all DynCorp invoices submitted under task orders S-AQMMA-08-F-5375 and
S-AQMMA-10-F-2708 from December 30, 2010, through July 15, 2011, to ensure DynCorp
is not double-billing DOS and DoD for the same charges. This recommendation should be
implemented in coordination with recommendation B.5.

INL Comments
The Acting Assistant Secretary, responding for the Executive Director, neither agreed nor
disagreed with the recommendation. He stated that having DCAA perform incurred cost audits
on task orders 4305 and 5375 would identify and ensure that DynCorp was not billing DOS and
DoD for the same charges.

Our Response
The Acting Assistant Secretary’s comments met the intent of the recommendation. No
additional comments are required.

B.4. We recommend that the Contracting Officer, Bureau of Administration, Office of
Logistics Management, Office of Acquisitions Management, in coordination with the
Executive Director, Bureau of International Narcotics and Law Enforcement Affairs,
recover from DynCorp:

       a. $334,400 for unauthorized travel costs.




                                              44
        b. $352,297 for labor costs not included in the statement of work, if the contracting
officer determines that an equitable adjustment is needed.

       c. $449,406 for labor costs for services not performed by the contractor if the
contracting officer determines that an equitable adjustment is needed.

       d. $938,454 for unauthorized purchases if officials from the Bureau of
International Narcotics and Law Enforcement Affairs cannot provide the Department of
State Office of Inspector General with documentation that a Government official approved
and accepted the purchase by July 29, 2011. This amount included purchases for $542,079
with no Government purchase approval; $332,631 with no Government purchase approval
and Government acceptance, and $63,744 with no Government acceptance.

       e. Overpayments based on Defense Contract Audit Agency audits of task orders
4305, 5375, and 2708.

       f. Once Recommendations B.2.a-d are implemented, the additional costs identified
during the 100-percent detailed invoice review as costs either not authorized or not for
services performed.

Bureau of Administration Comments
The Acting Assistant Secretary, responding for the Contracting Officer, provided comments that
neither agreed nor disagreed with the recommendation. He stated that once validated numbers
were determined, AQM would coordinate with INL, Legal, and DCAA to assess equitable
adjustments and cost recovery actions.

Our Response
The Acting Assistant Secretary’s comments met the intent of the recommendation. However, he
did not provide an estimated time frame for validating the amount of funds that should be
returned to DoD, and DOS should return the funds in a timely manner so that the funds do not
cancel and DoD can use those funds for valid requirements. In addition, once AQM and INL
validate the dollar amount to recover from DynCorp for Recommendations B.4.a-d, AQM should
provide the supporting documentation to DOS IG for review. No additional comments are
required.

INL Comments
Although not required to comment on the recommendation, the Acting Assistant Secretary stated
that once validated numbers are determined, AQM would coordinate with INL, Legal, and
DCAA to assess equitable adjustments and cost recovery actions.

B.5. We recommend that the Director, Defense Contract Audit Agency, verify that
DynCorp did not double-bill claimed costs during the transition period under DoD and
DOS contracts from December 30, 2010 through July 15, 2011. This recommendation
should be implemented once the actions in recommendation B.3.a-b have been taken.




                                              45
DCAA Comments
The DCAA Director agreed with the recommendation, stating that DCAA received funding from
DOS to begin audit work for task order 2708. He also stated that DCAA was auditing direct
costs for allowability, allocability, and reasonableness, and it was in the planning stage of the
audit. In addition, he stated that DCAA planned to perform direct cost testing on the
replacement DoD Contract No. W91CRB-11-C-0053, and based on a risk assessment, would
perform statistical sampling and judgmental selection procedures of invoiced costs to determine
allowably, allocability, and reasonableness. Finally, the Director stated that DCAA would also
perform audit procedures to identify whether any invoiced costs have been duplicated and billed
under task orders 5375 and 2708 and the new DoD contract during the transition.

Our Response
The Director’s comments were responsive, and no additional comments are required.




                                               46
Status of DoD and DOS Implementation of Prior
Audit Report Recommendations
In our joint DoD-DOS OIG audit report, “DoD Obligations and Expenditures of Funds Provided
to the Department of State for the Training and Mentoring of the Afghan National Police,”
February 9, 2010, we made 23 recommendations. 25 Of those 23, DoD and DOS officials needed
to take additional action on 11 recommendations. We replaced 7 of the 11 original
recommendations with new recommendations in Findings A or B of this report or in the report
that will address the remaining FY 2011 Act requirements. The other four recommendations
were open or reissued based on additional fieldwork performed during this audit. See Table 8
for a listing of the DoD and DOS offices that were responsible for implementing the 23 prior
audit report recommendations, and whether the recommendation was open, reissued, closed, or a
new recommendation was made.

        Table 8. Status of Recommendations From the February 2010 Joint Audit Report
                                        Open or                           New
         Management          Total                     Closed
                                        Reissued                   Recommendation
        CSTC–A                10                         10                1
        USD(C)/CFO             2                          2                2
        DCAA                   2                          2
        DOS/INL                6            4             2                1
        DOS/RM                 3                          3                3
          Total               23            4            19                7

The following includes a summary of each prior recommendation from the February 2010 joint
audit report and the status of management actions taken based on fieldwork conducted for this
audit.

Recommendations for Finding A. National Strategy
A.1. We recommend that the Commanding General, Combined Security Transition
Command–Afghanistan clearly define the requirements for the Afghan National Police
training program.

NTM–A/CSTC–A implemented the recommendation. NTM–A/CSTC–A officials defined many
of the ANP training program requirements in the January 18, 2011, modified statement of work
(SOW) for the new DoD contract. Specifically, the modified SOW required the contractor to
oversee and support the transition of police training efforts to the Afghans. The SOW included
requirements for life support services, including security, maintenance, and food, at 15 locations.
It also contained requirements for 762 Ministry of Interior and ANP advisors, mentors, and
trainers throughout Afghanistan, which included position requirements and qualifications for the
various positions.

25
     Recommendation B.1 was addressed to both INL and CSTC–A.


                                                    47
Although the ANP training program requires the handling of some export-controlled items, such
as weapons, Army Contracting Command officials did not include a requirement in the contract
to comply with all applicable export-control laws and regulations. We contacted the contracting
officer, who agreed that Defense Federal Acquisition Regulation Supplement 252.204-7008,
“Export-Controlled Items,” should have been incorporated into the contract. Subsequently, the
contracting officer included this clause in the February 15, 2011, contract modification.

For the most part, NTM–A/CSTC–A officials also aligned the modified SOW with the goals,
objectives, and priorities in the Ministry of Interior 2010 ANP Plan. During fieldwork for this
audit, we recommended that the NTM–A/CSTC–A Deputy Commander for Programs, within
6 months of contract execution, compare the modified SOW to the Ministry of Interior
2011 ANP Plan to confirm whether the SOW continues to align with ANP goals, objectives, and
priorities. The Deputy Commander for Programs stated that NTM–A/CSTC–A officials plan to
review the SOW every 6 months and, if necessary, modify it to ensure the contract continues to
meet the goals of the Ministry of Interior for ANP development.

Status: Closed, appropriate action taken.

A.2. We recommend that the Commanding General, Combined Security Transition
Command–Afghanistan establish contractor performance standards that will meet DoD’s
requirements for training and mentoring the Afghan National Police.

NTM–A/CSTC–A implemented the recommendation. NTM–A/CSTC–A officials established
contactor performance standards in the January 2011 modified SOW. Specifically, the modified
SOW contains performance standards that align with the goal of transferring security
responsibilities to the Afghanistan Ministry of Interior and ANP within a specified time frame.
                                         For example, the modified SOW required the contractor
     The modified SOW contains           to develop tasks, methods, and systems for transferring
   performance standards that align      specific command and training responsibilities within a
     with the goal of transferring       12- to 18-month time frame, respectively. In addition,
    security responsibilities to the     the modified SOW specified performance standards for
     Ministry of Interior and ANP        some of the more technical advisor, mentor, and trainer
     within a specified time frame.      services by unique tasks. Therefore, DoD will use both
                                         qualitative and quantitative methods to measure those
performance standards. The modified SOW also contained life support service performance
standards for security, food, and maintenance. DoD will measure those service performance
standards by level of effort.

Status: Closed, appropriate action taken.

Recommendations for Finding B. Contractor Oversight
B.1. We recommend that the Assistant Secretary of State, Bureau of International
Narcotics and Law Enforcement Affairs and the Commanding General, Combined
Security Transition Command–Afghanistan ensure that the contracting officer for the




                                              48
Civilian Police contract performs a complete inventory of Government-furnished property
under task orders 4305 and 5375 and reconcile the inventory count to the property records
maintained by the contractor.

In April 2010 comments on our prior report, the INL Executive Director stated that INL, along
with CSTC–A, personnel performed a complete inventory of the Government-furnished property
and reconciled the inventory to the property book in October 2009. As a result, this
recommendation was closed. However, during our fieldwork, the lead I-COR stated that there
was approximately $9 million in unresolved discrepancies during the October 2009 inventory.

In May 2011, the COR for task orders 4305 and 5375 stated that although an inventory was
initiated in October 2009, it was suspended due to the delay in DoD’s award of a valid contract
for the ANP training program. The COR further stated that at the time the inventory was
stopped, approximately $9 million of unverified inventory had not been accounted for. Further,
the COR and a DynCorp official for the DOS contract both stated that they would reconcile the
inventory after the transition from DOS to DoD ended in April 2011. On May 12, 2011, the
COR stated that he anticipated that the inventory would be completed by the end of May 2011.

Status: Recommendation B.1 is reissued and redirected. Although closed by DOS OIG on
October 25, 2010, additional actions are required, and we are reissuing the
recommendation. The Assistant Secretary of State, Bureau of International Narcotics and
Law Enforcement Affairs, should ensure that the contracting officer’s representative for
task orders 4305 and 5375, in coordination with the contractor, resolve the approximately
$9 million of unverified inventory in accordance with FAR 45.105, “Records of
Government property,” by granting the contractor relief of responsibility for lost,
damaged, destroyed, or stolen Government property or forwarding a recommendation
requesting the contracting officer to hold the contractor liable.

INL Comments
The Acting Assistant Secretary neither agreed nor disagreed with the reissued recommendation.
He stated that the annual inventory for U.S, Government-owned, contractor-held assets was
completed at the end of May 2011 and noted that the differences between the inventory and the
property book will be reconciled.

Our Response
The Acting Assistant Secretary’s comments met the intent of the recommendation. However, he
did not provide an estimated time frame for the resolution of differences between the inventory
and the property book. INL should provide the DOS OIG with estimated time frames and
documentation once the differences between the inventory and property book are resolved. No
additional comments are required.

B.2.a. We recommend that the Assistant Secretary of State, Bureau of International
Narcotics and Law Enforcement Affairs ensure that the contracting officer for the Civilian
Police contract strengthen existing internal controls over contract administration,
oversight, and financial reporting to comply with the Foreign Affairs Handbook
requirements.


                                               49
In response to the February 2010 joint audit report, the INL Executive Director indicated that
INL was in the process of strengthening contract administration, oversight, and financial
reporting. Specifically, he stated that INL was increasing the number of I-CORs, developing and
implementing a Quality Assurance Surveillance Plan, ensuring that I-COR and COR support
staff would have access to and training on the use of the contractor’s property management
system, establishing an information-sharing portal using SharePoint, engaging DCAA to conduct
audits of task orders 4305 and 5375, implementing an internal audit function, and completing
standard operating procedures.

During fieldwork we verified that INL officials had implemented a number of their planned
actions, including developing and partially implementing a Quality Assurance Surveillance Plan,
                                                  arranging for I-CORs and COR to have access to
     One lead I-COR and alternate I-COR           the contractor’s property management system,
        were assigned primary oversight           establishing a SharePoint site, engaging DCAA
      responsibilities for task order 5375,       to conduct audits, and establishing an internal
          including the oversight of the          audit function. We also verified that INL had
   1,221 contractors authorized to work on        increased the number of I-CORs designated
         the task order (1:610.5 ratio).          oversight responsibilities for contracts and task
                                                  orders in Afghanistan from three to seven.
However, only one lead I-COR and alternate I-COR were assigned primary oversight
responsibilities for task order 5375, including the oversight of the 1,221 contractors 26 authorized
to work on the task order (1:610.5 ratio). Five other I-CORs were assigned limited oversight
responsibility for task order 5375, such as validating purchase requests related to the regional
training centers they were assigned to support. In sum, seven I-CORs, with varying levels of
responsibility, provided oversight of 1,221 contractors authorized to work on task order 5375
(1:174.43 ratio).

In addition, although INL developed draft standard operating procedures for validating invoices,
maintaining COR files, and receiving and inspecting inventory, as of March 30, 2011, INL had
not finalized the standard operating procedures. Had INL fully implemented the
recommendation, the approval of contractor invoices for costs that were either not authorized or
for services not provided, as discussed in Finding B, may not have continued to occur. Although
oversight of the ANP training program has transferred to DoD, INL should continue to work
toward full implementation of all planned actions to strengthen its internal controls over other
programs.

Status: Recommendation B.2.a remains open and additional actions are required. The
Assistant Secretary of State, Bureau of International Narcotics and Law Enforcement
Affairs, should finalize and fully implement the standard operating procedures for
validating invoices, maintaining COR files, and receiving and inspecting inventory.

INL Comments
The Acting Assistant Secretary neither agreed nor disagreed with the recommendation. He
stated that INL had implemented the draft standard operating procedures for validating invoices,

26
     We did not include local nationals in the number of contractors authorized.


                                                           50
maintaining COR files, and receiving and inspecting inventory at posts. In addition, he stated
that INL would issue the final standard operating procedures in June 2011, with all aspects of the
procedures to be implemented during FY 2011.

Our Response
The Acting Assistant Secretary’s comments met the intent of the recommendation. No
additional comments are required.

B.2.b. We recommend that the Assistant Secretary of State, Bureau of International
Narcotics and Law Enforcement Affairs ensure that the contracting officer for the Civilian
Police contract establish and maintain contracting files that are complete and easily
accessible in accordance with the contracting officer delegation letters and the Foreign
Affairs Handbook requirements.

Although INL officials established an electronic filesharing system, they had not populated the
system with all relevant contract documents, which continued to impede the I-CORs’ ability to
perform oversight and monitoring responsibilities. For example, the lead I-COR stated that he
did not have access to the latest contract modifications or the most recent cost and technical
proposals, and therefore, he was unable to review or approve purchase requests for supplies and
services that the contractor needed to operate the training centers. Although DOS has transferred
oversight of the ANP training program to DoD, INL should continue to work toward fully
populating the filesharing system with relevant contracting files for all ongoing CIVPOL task
orders.

Status: Recommendation B.2.b is reissued. Although closed by DOS OIG on October 25,
2010, additional actions are required, and we are reissuing the recommendation. The
Assistant Secretary of State, Bureau of International Narcotics and Law Enforcement
Affairs, in coordination with the contracting officer for the CIVPOL contract, should fully
populate the filesharing system with relevant contracting files for all ongoing CIVPOL task
orders.

INL Comments
The Acting Assistant Secretary neither agreed nor disagreed with the reissued recommendation.
He stated that INL began establishing SharePoint access to the official COR file and posting
relevant contract data in July 2010. He also stated that in addition to the COR files, INL was
entering work notes, observations, and trip reports into the site to help facilitate contract
management and standard practices, especially during staff turnovers. Lastly, he stated that INL
continues to populate the site for Iraq- and Afghanistan-based task orders.

Our Response
The Acting Assistant Secretary’s comments were partially responsive but met the intent of the
recommendation. No additional comments are required.

B.3.a. We recommend that the Commanding General, Combined Security Transition
Command–Afghanistan direct the contracting officer for the new, DoD-managed Afghan



                                               51
National Police training program contract to designate an administrative contracting
officer in Afghanistan to implement immediate changes and conduct contractor oversight.

CSTC–A implemented the recommendation. The contracting officer for the new DoD ANP
training program contract delegated administrative contracting authority to DCMA. On
February 15, 2011, DCMA accepted the delegation, and the administrative contracting officer is
physically located in Afghanistan.

Status: Closed, appropriate action taken.

B.3.b. We recommend that the Commanding General, Combined Security Transition
Command–Afghanistan direct the contracting officer for the new, DoD-managed Afghan
National Police training program contract to designate a full-time property administrator
to oversee all Government-furnished property for contracts supporting the Afghan
National Police Program.

CSTC–A met the intent of the recommendation. The contracting officer for the new DoD ANP
training program contract delegated DCMA the responsibility for property administration. The
DCMA property administrator reviewed the DoD contractor’s property control procedures for
compliance with the FAR and provided an initial high-risk rating. As such, the property
administrator is to conduct annual audits of the property system. Although the property
administrator is responsible for two other DoD contracts, DCMA officials stated that they have
requested a property specialist to assist the property administrator in the performance of her
duties. DCMA officials also stated that the property specialist position had not been filled as of
May 12, 2011, but noted that the property administrator has performed all required duties
associated with oversight of the contractor’s property management plan since contract
delegation.

Status: Closed, appropriate action taken.

B.3.c. We recommend that the Commanding General, Combined Security Transition
Command–Afghanistan direct the contracting officer for the new, DoD-managed Afghan
National Police training program to develop a Quality Assurance Surveillance Plan that
addresses high-risk areas of the Afghan National Police training program contract.

CSTC–A met the intent of the recommendation. The contracting officer for the new DoD ANP
training program contract delegated DCMA the responsibility for quality assurance. DCMA
officials in Afghanistan developed quality assurance checklists based on the SOW and the terms
and conditions of the contract. Once full performance of the contract commences, oversight
personnel will use these checklists to conduct audits of contractor performance. During their
review of the contract, DCMA officials determined a moderate risk factor of noncompliance with
the new DoD ANP training program contract. Therefore, DCMA will require oversight
personnel to conduct monthly audits unless trend analyses of contractor compliance with
requirements indicate otherwise.




                                                52
The contracting officer also required the contractor to develop and submit a Quality Assurance
Surveillance Plan. However, she did not require the contractor to continuously update the
                                        Quality Assurance Surveillance Plan as substantive
       The contractor’s original        modifications were made to the SOW. Because of these
   Quality Assurance Surveillance       substantive changes, the contractor’s original Quality
   Plan no longer aligned with the      Assurance Surveillance Plan no longer aligned with the
            modified SOW.               modified SOW. On April 25, 2011, we contacted the
                                        contracting officer, who agreed that the Quality
Assurance Surveillance Plan should be updated. The contracting officer subsequently requested
that the contractor provide an updated Quality Assurance Surveillance Plan based on the
modified SOW. Although we commend the contracting officer for taking immediate action, she
should continue to request that the contractor update the Quality Assurance Surveillance Plan
when there are substantive changes to the SOW.

Status: Closed, appropriate action taken.

B.3.d. We recommend that the Commanding General, Combined Security Transition
Command–Afghanistan direct the contracting officer for the new, DoD-managed Afghan
National Police training program to establish and maintain contracting files that are
complete and easily accessible in accordance with the delegation letters and the Defense
Federal Acquisition Regulation Supplement.

CSTC–A implemented this recommendation. Officials established an electronic file-sharing
system and populated the system with the contract terms and conditions, the original and
modified SOW, quality assurance checklists, and NTM–A/CSTC–A COR nomination letters.
However, because of the austere working environment, some DoD representatives at the training
sites we visited did not have access to this system. NTM–A/CSTC–A officials developed a COR
strategy that included a communication plan to exchange unclassified information via
commercial Internet service. Furthermore, DCMA officials stated that as of April 2011, they had
provided all necessary contract oversight documents to the CORs who did not have access to the
filesharing system.

Status: Closed, appropriate action taken.

B.3.e. We recommend that the Commanding General, Combined Security Transition
Command–Afghanistan direct the contracting officer for the new, DoD-managed Afghan
National Police training program to evaluate and assign the appropriate number of in-
country contracting officer’s representatives 27 to oversee the Afghan National Police
program.

CSTC–A partially implemented this recommendation as of April 29, 2011. Although DoD
officials had identified a requirement for approximately 170 COR positions to provide oversight




27
     DoD uses the term COR in its official documentation rather than the DOS term I–COR.


                                                        53
of 762 contractors (1:4.5 ratio) for the new DoD ANP training program contract, only 89 CORs
had been assigned 28 to fill the 170 COR positions, as of April 29, 2011.

Status: Closed. In the report that will address the remaining FY 2011 Act requirements, we will
address whether the Government and contractor’s plans to transition the contract administration
of the ANP training program from DOS to DoD were complete and feasible. Further, we will
address whether DoD was prepared to provide management and oversight of the new DoD
contract. In that report, we will also include a recommendation for the Commander,
U.S. Forces–Afghanistan, to assign the remaining number of CORs to the new DoD ANP
training program contract.

Recommendations for Finding C. Contractor Invoice Review
C.1.a. We recommend that the Director, Defense Contract Audit Agency include public
vouchers submitted under task orders 4305 and 5375 of the Afghan National Police
Training Program indefinite-delivery, indefinite-quantity contracts as part of its review of
public vouchers in accordance with the procedures identified in the Defense Contract Audit
Agency Manual 7640.1, “Defense Contract Audit Manual.”

DCAA implemented the recommendation. On June 21, 2010, DCAA officials began their
review of vouchers submitted under task orders 4305 and 5375, in accordance with DCAA
Manual 7640.1. DCAA officials stated that they planned to finalize and issue their reports in
July 2011.

Status: Closed, appropriate action taken.

C.1.b. We recommend that the Director, Defense Contract Audit Agency conduct an audit
of the Afghan National Police training program contract to include cost-reimbursable line
items.

DCAA implemented the recommendation. DCAA officials were in the process of reviewing
vouchers submitted under task orders 4305 and 5375, and their review included cost-
reimbursable line items. DCAA officials stated that they planned to finalize and issue their
reports in July 2011.

Status: Closed, appropriate action taken.

C.2.a. We recommend that the Assistant Secretary of State, Bureau of International
Narcotics and Law Enforcement Affairs request audit support from the Defense Contract
Audit Agency to determine the allowability, allocability, and reasonableness of costs
associated with task orders 4305 and 5375.

DOS implemented the recommendation. AQM officials requested audit support from DCAA to
determine the allowability, allocability, and reasonableness of costs associated with task

28
  We defined the term “assigned” to mean that individuals were identified as CORs, but may not have been
nominated, trained, and appointed.


                                                      54
orders 4305 and 5375, and DCAA officials are in the process of conducting their review. DCAA
officials stated that they planned to finalize and issue their reports in July 2011.

Status: Closed, appropriate action taken.

C.2.b. We recommend that the Assistant Secretary of State, Bureau of International
Narcotics and Law Enforcement Affairs request refunds from the contractor for any costs
determined by the Defense Contract Audit Agency as not allowable, allocable, or
reasonable.

In April 2010 comments on our prior report, the INL Executive Director stated that INL would
request refunds from the contractor for any costs determined by DCAA as not allowable,
                                             allocable, or reasonable. As a result, this
   As of April 27, 2011, a DOS official      recommendation was closed. However, during the
   stated that they had not taken action     DCAA review of vouchers for task orders 4305 and
   to suspend costs or request a refund      5375, officials found that the contractor was not
            from the contractor.             providing supporting documentation to verify post-
                                             differential costs claimed and billed to the
Government. DCAA issued a memorandum to DOS on August 25, 2010, recommending that
DOS suspend costs for approximately $9.4 million ($5.8 million for task order 4305 and
$3.6 million for task order 5375) from the contractor. However, as of April 27, 2011, a DOS
official stated that they had not taken action to suspend costs or request a refund from the
contractor.

Status: Recommendation C.2.b is reissued. Although closed by DOS OIG on October 25,
2010, additional actions are required, and we are reissuing the recommendation. The
Assistant Secretary of State, Bureau of International Narcotics and Law Enforcement
Affairs, in coordination with the contracting officer, Bureau of Administration, Office of
Logistics Management, Office of Acquisitions Management, for the CIVPOL contract,
should review the approximately $9.4 million in questioned costs identified by DCAA and
take action to recover those costs.

INL Comments
The Acting Assistant Secretary neither agreed nor disagreed with the reissued recommendation.
He stated that INL planned to review the $9.4 million in questioned costs identified by DCAA,
and that INL would then work with the contracting officer to determine whether the funds should
be recovered.

Our Response
The Acting Assistant Secretary’s comments met the intent of the recommendation. Once INL
and the contracting officer have reviewed the $9.4 million in questioned costs and have taken
action to recover those funds, INL should provide the supporting documentation to DOS OIG for
review. No additional comments are required.

C.2.c. We recommend that the Assistant Secretary of State, Bureau of International
Narcotics and Law Enforcement Affairs ensure the in-country contracting officer’s


                                               55
representatives for the Civilian Police contract accept delivery of inventory, prepare
receiving reports, and match goods and services against invoices under task orders 4305
and 5375.

INL did not implement the recommendation. Specifically, during fieldwork in Afghanistan in
January and February 2011, we determined that I-CORs did not accept delivery of inventory,
prepare receiving reports, or match goods and services to invoices. This increased the risk of
DOS reimbursing the contractor for expenses of goods and services that were not actually
received. To mitigate this risk, we made recommendations in Finding B of this report for the
INL invoice review team to ensure contractor invoices contain documentation showing that a
Government official approved purchases and accepted materials, and for DOS to recover costs
that are not supported from the contractor. Given that DOS has transferred the oversight of the
ANP training program to DoD, the issue of the I-COR involvement with oversight of the ANP
training program has been overcome by events. Nonetheless, INL officials should consider
implementing this recommendation to strengthen their internal controls over other programs for
which they retain responsibility.

Status: Closed; overcome by events. See new Recommendations B.1.e, B.2.d, and B.4.d.

Recommendations for Finding D. Financial Management
D.1.a. We recommend that the Assistant Secretary of State for the Bureau of Resource
Management and Chief Financial Officer determine the status of the $1.04 billion of
Afghanistan Security Forces Funds provided by DoD to include whether the funds are
expended or expired.

Bureau of Resource Management officials did not fully implement the recommendation. On
January 6, 2011, the DOS Deputy Chief Financial Officer provided a memorandum to the INL
Executive Director requesting assistance in determining the status of DoD funds and asked that
INL validate the information noted in the memorandum. Although the Deputy Chief Financial
Officer requested a response by January 31, 2011, he stated in a meeting that INL did not
respond by that date. On April 18, 2011, the Deputy Chief Financial Officer stated in an e-mail
that he had received a response from INL. He stated that INL’s response indicated that all
unliquidated obligations were valid. However, on May 10, 2011, an INL official stated in an e-
mail that INL was in the process of deobligating $53 million of unneeded funds related to task
order 4305.

Status: Closed. See new Recommendations A.2. and A.4.

D.1.b. We recommend that the Assistant Secretary of State for the Bureau of Resource
Management and Chief Financial Officer return funds in excess of the amounts identified
as appropriate disbursements to the Treasury or the DoD, and at a minimum, return the
$56.8 million of the funds appropriated under Public Law 109-234 and $23.2 million of the
funds appropriated under Public Law 110-28 that had not been expended.

Status: Closed. See new recommendation A.2.



                                               56
D.1.c. We recommend that the Assistant Secretary of State for the Bureau of Resource
Management and Chief Financial Officer determine the impact of any errors identified on
the annual financial statements, make appropriate corrections, and communicate these
errors to the Under Secretary of Defense (Comptroller)/Chief Financial Officer, DoD.

Status: Closed. See new Recommendations A.1 and A.5.a.

D.2.a. We recommend that the Under Secretary of Defense (Comptroller)/Chief Financial
Officer, DoD, determine the impact of any errors communicated by the Assistant Secretary
of State for Resource Management and Chief Financial Officer on the annual financial
statements and make appropriate corrections.

Status: Closed. See new Recommendation A.7.a.

D.2.b. We recommend that the Under Secretary of Defense (Comptroller)/Chief Financial
Officer, DoD, request Department of State return funds in excess of the amounts identified
in Recommendation D.1.b. as appropriate disbursements to the Treasury or the DoD,
including the $56.8 million of funds appropriated under Public Law. 109-234 and the
$23.2 million of funds appropriated under Public Law 110-28 that had not been expended.

On July 8, 2010, at the request of USD(C)/CFO, a DSCA official requested INL to provide the
status of Recommendations D.1.a, D.1.b, and D.1.c. On the same day, an INL official asked the
DSCA official to clarify the request. According to an INL official, DSCA did not provide
clarification. Furthermore, the INL official stated that the recommendations were directed to the
Assistant Secretary for the Bureau of Resource Management. Therefore, the INL official
concluded that it would have been inappropriate to respond to this request. See Finding A in this
report for the status of the excess obligations.

Status: Closed. See new Recommendations A.7.a and A.7.b.

Recommendations for Finding E. Afghan Women’s
Police Corps
E.1. We recommend that Commanding General, Combined Security Transition
Command–Afghanistan, in coordination with the Assistant Secretary of State, Bureau of
International Narcotics and Law Enforcement Affairs and the Afghan Ministry of Interior,
establish and implement a plan within a specific time frame that will increase the training
facility capacity for female police members and provide them training to conduct law
enforcement in accordance with the requirements of the Capability Milestones 29 discussed
in Finding A [of the February 2010 audit report].




29
  Prior to May 2010, NTM–A/CSTC–A used a subjective method to rate ANP, which produced Capability
Milestone ratings completed monthly. In May 2010, rather than use the Capability Milestone ratings,
NTM–A/CSTC–A implemented the Commander Unit Assessment Tool, which establishes rating definition levels
that should be compiled every 6 weeks by both coalition forces and Afghan National Security Forces.


                                                   57
CSTC–A met the intent of the recommendation. The DoD SOW required DynCorp to maintain
                                        the capacity of 50 female students each at 5 training
     At full capacity, trainers at      centers throughout Afghanistan. The five training centers
    those locations could train a       included the regional training centers at Jalalabad, Mazar-
     total of 250 female students       e-Sharif, Konduz, and Herat and the National Police
          during each cycle.            Academy in Kabul. At full capacity, trainers at those
locations could train a total of 250 female students during each cycle. The Women’s Police
Corps training capacity under the DOS contract was only 60 students per training cycle.

Status: Closed, appropriate action taken.

E.2. We recommend that Commanding General, Combined Security Transition
Command–Afghanistan, in coordination with the Assistant Secretary of State, Bureau of
International Narcotics and Law Enforcement Affairs and the Afghan Ministry of Interior,
establish and implement a plan within a specific time frame to recruit an adequate number
of female training instructors and mentors to staff those training centers.

CSTC–A officials met the intent of the recommendation. Specifically, the SOW required
DynCorp to provide 11 Women’s Police Corps institutional trainers at 5 of the training centers.
Coalition forces provide additional Women’s Police Corps mentors at the training centers. As of
August 2009, only four female mentors were located at the National Police Academy in Kabul.
Two female mentors were at the Jalalabad training center when it opened in December 2009.
During our fieldwork, a Combined Training Advisory Group-Police official stated that there
were four female coalition force mentors at the Jalalabad training center and two additional
coalition force mentors at the National Police Academy in Kabul.

Status: Closed, appropriate action taken.

NTM–A/CSTC–A Comments
Although not required to comment, the Deputy Commander for Programs stated that
NTM–A/CSTC–A was able to use the recommendations from our February 2010 joint audit
report to shape the oversight structure and auditing plans for the new DoD contract.




                                                 58
Appendix A. Scope and Methodology
We conducted this performance audit from September 2010 through May 2011 in accordance
with generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit. We believe that the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives.

To accomplish our audit objectives, we coordinated with or interviewed officials from the
USD(P); USD(C)/CFO; Assistant Secretary of the Army for Acquisition, Logistics, and
Technology; DSCA; DCAA; DCMA; U.S. Central Command; U.S. Forces–Afghanistan; NTM–
A/CSTC–A; International Security Assistance Forces Joint Command; and U.S. Army
Contracting Command. Additionally, we coordinated with or interviewed DOS officials from
the Bureau of Resource Management; AQM; and INL, including the Office of Afghanistan and
Pakistan Programs, the Office of Resource Management, and the Afghanistan, Iraq, and Jordan
Support Division. We also interviewed DynCorp contractor officials operating under both the
DOS and DoD ANP training program contracts.

We determined the universe of all DoD funds transferred to DOS from November 2006 to
December 2010 that support the ANP training program and obtained their applicable
reimbursable agreements. We reviewed the INL budgetary tracking spreadsheet and supporting
documentation to determine whether the funds were obligated within the time period specified
by the reimbursable agreements. Additionally, we requested and evaluated supporting
documentation for 10 nonstatistically selected obligations from the INL budgetary tracking
spreadsheet. Our evaluation was based on high-risk areas, such as high dollar amount or a
questionable obligation description, to determine whether INL obligated the funds within the
scope of the reimbursable agreements, had adequate supporting documentation, and complied
with applicable Federal appropriations law. We also reviewed the descriptions in all of the
modifications for task orders 4305 and 5375 to determine whether the descriptions appeared to
be within the scope of the ANP training program. For the modifications that appeared to be
outside the scope, we obtained additional documentation to determine whether the INL
obligations were proper.

We used previous DoD and DOS reports and assessments to evaluate DynCorp invoicing and
billing procedures. We also reviewed rejected invoices for task orders 4305 and 5375 and
focused our review on determining the main causes for invoice rejections. Using a combination
of statistical and nonstatistical samples, we analyzed contractor charges or invoices for travel
costs, labor costs, and contractor-purchased goods. For travel costs, we evaluated contractor-
provided costs related to the weekly meetings in Washington, D.C., from February 2007 through
January 2011. We determined the total dollar value of travel costs and reviewed a nonstatistical
sample of specific charges. Our nonstatistical sample was based on the individuals that traveled
most often, and we focused our review on identifying charges that exceeded per diem rates or
had invalid justifications according to the Federal and Joint Travel Regulations. For labor costs,
we reviewed contractor timesheets for task order 5375 for one 2-week pay period (January 28
through February 10, 2011) for compliance with the 12-hour per day and 6-day per week labor
requirements (see Appendix C). We also coordinated with DCAA officials who were


                                                59
concurrently conducting audits related to task orders 4305 and 5375. For goods the contractor
purchased, we reviewed a nonstatistical sample of 10 of 103 invoices based on high dollar
values. Of those 10 invoices, we further evaluated a nonstatistical sample of 24 items also based
on high dollar values. We specifically reviewed the supporting documentation to determine
whether the documentation included Government approval. We also reviewed supporting
documentation for 11 of the 24 items, for proof of Government acceptance, as the remaining
13 items did not require Government acceptance.

We conducted interviews with DoD, DOS, and contractor officials in the United States and at
eight sites throughout Afghanistan (Camp Eggers, U.S. Embassy Kabul, Camp Gibson, and the
five regional training centers) to determine the status of management actions taken in response to
the recommendations made in the February 2010 joint audit report. We also obtained and
evaluated the DoD ANP training program contract, original and modified SOWs, quality
assurance checklists, and the quality assurance surveillance plan; Women’s Police Corps data on
training capacity and the number of trainers and mentors; DOS controls for contract
oversight; access to a DOS electronic filesharing system containing contract documents
necessary to perform oversight and monitoring functions; and NTM–A/CSTC–A and DCMA
plans for contract oversight and COR structure for the DoD contract. We also reviewed a
nonstatistical sample of inventory based on cost and category, and performed both existence and
completeness testing of the sampled inventory items at five regional training centers in
Afghanistan.

Upon completing our initial fieldwork, we coordinated with DoD and DOS officials to address
concerns we observed during the audit, provided recommendations, and verified actions taken,
where appropriate. To validate factual accuracy, we also provided a discussion draft to DoD and
DOS officials discussed in this report.

Use of Computer-Processed Data
We used computer-processed data obtained from the DOS Global Financial Management
System, the INL Office of Resource Management budgetary tracking spreadsheet, and the
Afghanistan, Iraq, and Jordan Support Division invoice log to determine obligation and
expenditure amounts. To assess the reliability of the obligation amounts on the budgetary
tracking spreadsheet, we reviewed all modification amounts for task orders 4305 and 5375 and
compared those amounts with the budgetary spreadsheet amounts. In addition, we
nonstatistically selected other obligation amounts and compared those amounts with source
documentation. We did not identify any significant discrepancies, and therefore, we determined
that the budgetary tracking spreadsheet obligation amounts were sufficiently reliable for the
purposes of this report.

In addition, to assess the reliability of the summary expenditure data on the budgetary tracking
spreadsheet, we compared detailed transactions from Global Financial Management System with
the INL Office of Resource Management budgetary tracking spreadsheet. We analyzed the data
at a summary level because the two sets of data did not directly correlate with each other. We
were able to generally match the detailed transactions to the budgetary transaction expenditure
amounts. In addition, we compared the detailed transactions from Global Financial Management
System with the invoice log maintained by the Afghanistan, Iraq, and Jordan Support Division


                                               60
and nonstatistically selected transaction source documentation. We identified one discrepancy,
which is discussed in Finding A, “Improper Reobligation of Expired Funds” section; however,
we did not find any other significant discrepancies among the data sets. Therefore, we
determined that the budgetary tracking spreadsheet expenditure summary amounts were
sufficiently reliable for the purposes of this report.

We also relied on a spreadsheet provided by DynCorp to determine the total amount of DynCorp
travel costs for contractor personnel in Texas to attend weekly meetings in Washington, DC. We
nonstatistically sampled 11 of the travel costs based on dollar amount and employee and
reviewed supporting documentation, such as travel reservations, DynCorp system travel expense
reports, and receipts for flights, rental cars, and hotels. We did not identify any significant
discrepancies between the spreadsheet and supporting documentation. Therefore, we determined
that the amounts in the DynCorp spreadsheet were sufficiently reliable for the purposes of this
report.

Finally, we relied on another spreadsheet provided by DynCorp to determine the type and
amount of inventory in Afghanistan. Using these data, we nonstatistically selected a sample of
inventory to review, based on cost and category, at five regional training centers in Afghanistan.
We performed existence and completeness testing on the sampled inventory and found no
discrepancies. Therefore, we determined that the inventory records in the DynCorp inventory
spreadsheet were sufficiently reliable for the purposes of this report.

Use of Technical Assistance
The DoD OIG Quantitative Methods and Analysis Division (QMAD) assisted with the audit.
See Appendix C for detailed information about the work QMAD performed.




                                                61
Appendix B. Prior Coverage
During the last 5 years, the Government Accountability Office (GAO), the DoD IG, the DOS IG,
the Special Inspector General for Afghanistan Reconstruction, and the Special Inspector General
for Iraq Reconstruction have issued 11 reports discussing ANP challenges and contractual
oversight issues. Unrestricted GAO reports can be accessed over the Internet at
http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
http://www.dodig.mil/audit/reports. Unrestricted DOS IG reports can be accessed at
http://www.oig.state.gov. Unrestricted Special Inspector General for Afghanistan
Reconstruction reports can be accessed at http://www.sigar.mil. Unrestricted Special Inspector
General for Iraq Reconstruction reports can be accessed at http://www.sigir.mil.

GAO
GAO Report No. GAO-09-280, “Afghanistan Security – U.S. Programs to Further Reform
Ministry of Interior and National Police Challenged by Lack of Military Personnel and Afghan
Cooperation,” March 9, 2009

GAO Report No. GAO-08-661, “Afghanistan Security – Further Congressional Action May Be
Needed to Ensure Completion of a Detailed Plan to Develop and Sustain Capable Afghan
National Security Forces,” June 18, 2008

DOS IG
DOS Report No. AUD/IQO-07-48, “Accounting for Government-Owned Personal Property Held
by Selected Contractors in Afghanistan,” August 31, 2007

DoD IG
DoD Report No. SPO-2011-003, “Assessment of U.S. Government Efforts to Train, Equip, and
Mentor the Expanded Afghan National Police,” March 3, 2011

DoD Report No. SPO-2009-007, “Report on the Assessment of U.S. and Coalition Plans to
Train, Equip, and Field the Afghan National Security Forces,” September 30, 2009

DOS IG and DoD IG
DOS Report No. MERO-A-10-06 and DoD Report No. D-2010-042, “DOD Obligations and
Expenditures of Funds Provided to the Department Of State for the Training and Mentoring of
the Afghan National Police,” February 9, 2010

DOS Report No. ISP-IQO-07-07 and DoD Report No. IE-2007-001, “Interagency Assessment of
Afghanistan Police Training and Readiness,” November 14, 2006

Special Inspector General for Afghanistan Reconstruction
SIGAR Audit-10-12, “ANP Compound at Kandahar Generally Met Contract Terms but Has
Project Planning, Oversight, and Sustainability Issues,” July 22, 2010




                                              62
SIGAR Audit-10-11, “Actions Needed to Improve the Reliability of Afghan Security Force
Assessments,” June 29, 2010

SIGAR Audit-09-1, “Contract Oversight Capabilities of the Defense Department’s Combined
Security Transition Command – Afghanistan (CSTC-A) Need Strengthening,” May 19, 2009

Special Inspector General for Iraq Reconstruction
SIGIR 10-008, “Long-standing Weaknesses in Department of State’s Oversight of DynCorp
Contract for Support of the Iraqi Police Training Program,” January 25, 2010




                                            63
Appendix C. Use of Technical Assistance
The audit team provided the DoD OIG Quantitative Methods and Analysis Division (QMAD) a
population of 1,565 contractor personnel timesheets for one 2-week pay period ending
February 10, 2011. QMAD analysts used a simple random sample design to select a sample of
238 timesheets for the audit team to review. They provided the necessary details for the audit
team to analyze the selected sample transactions. The audit team analyzed the timesheets to
determine whether the contractor complied with labor requirements in the contract; specifically,
the 6-day per week and 8- to 12-hour per day requirements.

The audit team provided the sample results to QMAD analysts, who reviewed the results and
computed statistical projections over the population. The projections were computed to project
overpayments made to the contractors based on the excessive hours charged, excessive days
charged, and a combination of both. QMAD analysts projected the range of amounts overpaid to
the contractor and the error rates for excessive days and hours by using a 90-percent confidence
level. See Table 9 for the projected overpayments and Table 10 for the projected error rates and
number of errors.


                        Table 9. Overpayments Based on Excessive Charges
                                                                                          Upper
              Charge                        Lower Bound        Point Estimate
                                                                                          Bound
  Excessive Days                             $295,566              $352,297              $409,028
  Excessive Hours                            $368,965              $449,406              $529,847
    Total                                    $678,537              $801,703              $924,868
Note: At the 90-percent confidence level. Columns may not add because of rounding and independent projections.



            Table 10. Projected Errors for Excessive Days and Hours Charged
                                               Lower         Point      Upper
  Contract Personnel
                                               Bound       Estimate     Bound
  Worked More Than 6 Days
     Rate                                      51.6%        56.7%       61.8%
     Number                                     806           885         964
  Worked Less Than 8- to 12-Hour Day
     Rate                                      80.2%        84.0%       87.8%
     Number                                    1,251         1,311       1,370
Note: At the 90-percent confidence level.




                                                        64
Appendix D. FY 2011 National Defense
Authorization Act, P.L. 111-383, Section 1235




                        65
66
Appendix E. Summary of Potential
Monetary Benefits
Recommendations                Type of Benefit               Amount of Benefit         Account(s)
A.1, A.3, A.5.b,       Funds put to better use and          $25.06 million and        FYs 2006 and
A.5.d, A.7.a, A.7.c,   improved internal controls.          possibly another          2007
A.7.d & A.9            Ensures that future funds are not    $2.25 million obligated   Afghanistan
                       used outside the scope of            outside scope of          Security
                       reimbursable agreements and          reimbursable              Forces Fund.
                       returns misused funds so that        agreements.
                       DoD can put them to better use.
A.2, A.4, A.5.a,       Funds put to better use and          $95.24 million of         FYs 2006-10
A.5.c, A.7.a &         improved internal controls.          current excess funds      Afghanistan
A.7.b                  Ensures that current and future      and an undeterminable     Security
                       excess obligated and unobligated     amount of future          Forces Fund.
                       funds are returned to DoD so         excess funds.
                       they can be used.
B.1.a, B.2.a, B.4.a,   Funds put to better use and          $0.33 million for past    FY 2009 and
B.4.e & B.4.f          improved internal controls.          costs and                 possibly other
                       Prevents future unauthorized         undeterminable future     years of
                       travel costs and recovers costs      savings.                  Afghanistan
                       for past unauthorized travel                                   Security
                       costs.                                                         Forces Fund.
B.1.c, B.2.c, B.4.b,   Funds put to better use and          $0.35 million             FY 2010 and
B.4.e & B.4.f          improved internal controls.          identified and an         possibly other
                       Identifies and potentially           undeterminable            years of
                       recovers past costs and prevents     amount of additional      Afghanistan
                       future costs for work performed      past costs and future     Security
                       in excess of contract                savings.                  Forces Fund.
                       requirements.
B.1.d, B.2.c, B.4.c,   Funds put to better use and          $0.45 million             FY 2010 and
B.4.e & B.4.f          improved internal controls.          identified and an         possibly other
                       Identifies and recovers past costs   undeterminable            years of
                       and prevents future costs for        amount of additional      Afghanistan
                       billings in excess of work           past costs and future     Security
                       performed.                           savings.                  Forces Fund.
B.1.e, B.2.d, B.4.d,   Funds put to better use and          $0.94 million             FY 2008,
B.4.e & B.4.f          improved internal controls.          identified and an         FY2009 and
                       Identifies and recovers costs for    undeterminable            possibly other
                       supplies and materials purchased     amount of additional      years of
                       without Government approval or       past costs and future     Afghanistan
                       acceptance and prevents future       savings.                  Security
                       costs.                                                         Forces Fund.
  Total ANP                                                 $124.62 million
  Benefits




                                                 67
Appendix F. DoD and DOS Memoranda
of Agreement
The MOAs establish the dollar threshold to be provided by DoD to DOS. DoD transferred the
entire dollar value of the MOA to DOS or created an MOU to transfer a portion of the allowable
dollar value. For each MOA applicable to the ANP training program, Table 11 lists the fiscal
year the MOA was signed, a description of what the funds were for, dollar value listed in the
MOA, and the amount DoD actually transferred to DOS.

                      Table 11. DoD Transfers by MOA (in millions)
                                                                                 Dollar Value
 Fiscal                      Description                       Dollar Value
                                                                                   of DoD
 Year                                                            of MOA
                                                                                  Transfer
2006       Train and mentor ANP                                      $399.00            $388.00
2007       Train and mentor ANP                                       391.00             391.00
2009       Train and mentor ANP                              300.00 – 450.00              75.40
                                                                                         181.40
                                                                                          35.00
                                                                                          38.00
                                                                                          13.00
                                                                                          84.30
2009       Support ANP by providing life support at Camp                 3.00              3.00
           Falcon
2010       Modification to 2009 MOA for $9 million to                    9.00               3.20
           provide life support at Camp Falcon
2010       Amendment to 2009 MOA for $300 million to          No funds added              10.76
           $450 million above to add additional scope of
           the Embedded Police Mentoring Team                                             37.00

  Total                                                                               $1,260.06




                                              68
Glossary
Appropriation. A form of budget authority that makes funds available to an agency to incur
obligations and make expenditures. Therefore, agencies receive appropriated funds.

Antideficiency Act. Act that prohibits Federal agencies from obligating or expending Federal
funds in advance or in excess of an appropriation or apportionment per 31 U.S.C. 1341 and
31 U.S.C. 1517. The act requires agencies violating its proscriptions to report to the President
and Congress all relevant facts and a statement of actions taken.

Bona Fide Need. A legitimate need in the period of availability.

Closed Account. An appropriation account whose balance has been canceled. An appropriation
becomes closed on the last day of the fifth fiscal year after the period of availability ends. The
entity returns funds in this account to treasury and can longer use the funds for any purpose.

Deobligation. The action taken when the obligation amount is determined to be in excess of the
actual obligation amount. An entity can deobligate the excess obligations and put them to better
use.

Expenditure. Also known as an “outlay” and is the issuance of checks, disbursements of cash,
or electronic transfer of funds to liquidate a Federal obligation.

Expired Account. The appropriation account after the period of availability has ended, but not
yet closed. In other words, the agency cannot make new obligations when the funds have moved
into the expired account.

Multiple Year Appropriation. Appropriations available for obligation for a definite period in
excess of 1 fiscal year.

Obligation. The commitment of funds when an entity orders goods and services.

Period of Availability. The period for which the agency can obligate an appropriation.




                                                69
Under Secretary of Defense (Comptroller)/Chief Financial
Officer, DoD Comments

                                                           Final Report
                                                            Reference




                    Click to add JPEG file




                                   70
Click to add JPEG file




               71
Click to add JPEG file
                         Redirected, page 30




               72
Bureau of Administration Comments


                                           Final Report
                                            Reference




                  Click to add JPEG file




                                 73
Click to add JPEG file




               74
Bureau of International Narcotics and Law Enforcement
Affairs Comments

                                                        Final Report
                                                         Reference




                   Click to add JPEG file




                                  75
                         Revised, page 23




Click to add JPEG file




               76
Click to add JPEG file




               77
                         Revised, page 26
Click to add JPEG file




               78
                         Revised,
                         pages 26-27




Click to add JPEG file




               79
Click to add JPEG file




               80
Click to add JPEG file




               81
Click to add JPEG file




               82
Click to add JPEG file




               83
Click to add JPEG file




               84
Click to add JPEG file




               85
Click to add JPEG file




               86
Defense Contract Audit Agency Comments


                                           Final Report
                                            Reference




                  Click to add JPEG file




                                 87
Click to add JPEG file




               88
NATO Training Mission–Afghanistan/Combined Security
Transition Command–Afghanistan Comments

                                                      Final Report
                                                       Reference




                  Click to add JPEG file




                                 89
 




    90
FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
                 of Federal programs
            and resources hurts everyone.



         Call the Office of Inspector General
                       HOTLINE
                     202-647-3320
                  or 1-800-409-9926
        to report illegal or wasteful activities.

               You may also write to
             Office of Inspector General
              U.S. Department of State
                     HOTLINE
               Post Office Box 9778
               Arlington, VA 22219

       Please visit our Web site at oig.state.gov

           Cables to the Inspector General
          should be slugged “OIG Channel”
              to ensure confidentiality
DoD Report No. D-2011-080                                                  DOS Report No. AUD/CG-11-30




                               Department of State Office of Inspector General
                                           2201 C Street, N.W.
                                             Suite 8100, SA-3
                                      Washington, D.C. 20522-0308

                             Department of Defense Office of Inspector General
                                          400 Army Navy Drive
                                        Arlington, VA 22202-4704

   The report is available online at: http://www.dodig.mil and also available at http://oig.state.gov
